<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                       WEDNESDAY, MARCH 26, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Domenici, Shelby, 
Burns, Inouye, Dorgan, and Durbin.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

STATEMENT OF HON. JAMES G. ROCHE, SECRETARY OF THE AIR 
            FORCE
ACCOMPANIED BY GENERAL JOHN P. JUMPER, AIR FORCE, CHIEF OF STAFF

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Secretary Roche, General Jumper, truly the 
eyes of the world are upon you, and we have witnessed with awe 
the professionalism of the Air Force and the planning that you 
have done. All Americans I think are very proud of you; some 
may disagree with the decision to go there, but I don't think 
there is anyone that is not proud of our men and women in 
uniform and those working with them in civilian life in the 
Department of Defense.
    These combat missions in Iraq are really telling an amazing 
story of the times that you and your predecessors have been 
before this committee asking for taxpayers' money to make 
certain that you had the type of equipment that you could use 
if and when the Commander in Chief asked you to perform the 
duties that you are now performing.
    I think the whole country is proud of you as I've said, but 
I think we are very proud that you are where you are now, 
because we know you all and we've worked with you and we know 
that you really have in mind the safety of those men and women 
that are under your command.
    We now begin the review of the fiscal year 2004 budget, 
that's what we're talking about today. There is now pending 
before us a supplemental request for fiscal year 2003 for the 
operations in Iraq and the war on terrorism. That will not be 
the subject of the discussion here today. We do believe that 
the missions that you are performing today might change this 
budget as we go down the line, as far as what's needed in 
fiscal year 2004, and we will listen respectfully to any 
changes that you might wish to make now or later in your fiscal 
year 2004 request.
    We personally look forward, I do, to hearing your 
statements today and knowing the priorities in the budget 
request for fiscal year 2004. I do expect and hope we will hear 
your urgent plea for action on the supplemental, which I hope 
to get passed before we leave on the Easter recess. And as you 
may know, I have made the statement to our Commander in Chief 
that if we don't finish by the time for our recess, I don't 
think we should leave Washington until we do finish the 
supplemental. It's that important, I believe, to the men and 
women wearing our uniform around the world.
    We will make your statements part of the record in full, I 
look forward to your statements today, and before you proceed, 
let me call on my good friend from Hawaii, my co-chairman.
    Senator Inouye. I want to thank you very much, Mr. 
Chairman. Mr. Secretary, General Jumper, I join my chairman in 
welcoming you once again to testify before this committee.
    Let me join my chairman in saying how proud and supportive 
we are of the work done by the men and women of the Air Force 
in support of the global war on terrorism and the current 
mission in Iraq. I can join my chairman in assuring you that 
this committee will do all it can to support the Department's 
effort.
    Senator Stevens. Senator Burns, do you have a statement?

                   STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. Mr. Chairman, I just want to echo our 
feelings, I think I, along with the rest of my colleagues and 
you, try to offer our men and women who are wearing the uniform 
right now, especially the Air Force, not only have the training 
and the equipment to complete the mission that we have, and 
also get them home safely. We are very supportive of your 
organization, your leadership, and of course the role that all 
people are playing right now who wear the uniform of this 
country and believe in the same precepts that we do.
    Mr. Chairman, thank you very much.
    Senator Stevens. Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, let me echo the comments you 
have made and my other two colleagues, Mr. Secretary, and 
especially to the men and women who serve under you for your 
service to our country. I'm going to have to go to the floor of 
the Senate for about 15 to 20 minutes at 10:30, but I want to 
come back. I do have a series of questions I want to ask. And 
again, it's always a great opportunity to hear from General 
Jumper, and thank you for your service.
    Senator Stevens. Let me remind the committee that we have 
these high tech microphones now, and you have to push the 
button, but the light shows underneath it rather than on top. 
Be sure you turn it on when you're going to speak.
    Secretary Roche, we should all have a moment of silent 
prayer for the souls of those who have already lost their lives 
in this endeavor, and I do hope you will agree that we should 
just stand here in a moment of silence before we begin this 
testimony.
    Secretary Roche. I would be honored, Mr. Chairman.
    [A moment of silence was observed.]
    Senator Stevens. Thank you very much.
    Those visions on the television bring back memories to 
Senator Inouye and myself, and I think others on this 
committee, so we do welcome you today and look forward to your 
testimony.
    Secretary Roche. Thank you very much, Mr. Chairman. I think 
I've got the button pushed correctly and it's working.
    Thank you, sir, and thank you, Senator Inouye and members 
of the committee for this opportunity. It is my great honor to 
join my colleague General John Jumper today, to represent the 
700,000 active, guard, reserve and civilian airmen who are 
engaged in defending our nation and serving our interests 
around the globe. We are very proud of their honorable service 
and unshakable dedication, from combat operations and homeland 
defense to the daily efforts that guarantee the readiness, 
health, security and morale of our force.
    In our travels around the Air Force, as you have traveled 
around to many of our bases, we have been impressed and humbled 
by the creativity of our airmen, their commitment and their 
professionalism.
    As we appear before you today, we have close to 50,000 
airmen serving at some 50 expeditionary bases in more than 35 
countries, plus another 60,000 airmen currently assigned 
overseas. We have over 43,000 airmen in the area of operations 
as of today. They are fighting the war on terrorism and 
defending our Nation's interests even as we speak.

                        OPERATION IRAQI FREEDOM

    In Operation Iraqi Freedom, the Air Force has fully 
integrated into a joint and coalition force conducting combat 
operations in support of our strategic and campaign objectives. 
The combined forces' air component commander, Air Force 
Lieutenant General Buzz Moseley, who many of you in the Senate 
know, commands almost 2,000 Air Force, Navy, Marine Corps and 
coalition aircraft in a single combined air operation center in 
Southwest Asia.

                               AIR POWER

    The air picture in this operation center shows the dense 
presence of air power over the entire country of Iraq. If we 
could have a camera looking down from far far overhead, with a 
blue dot for every American airplane over Iraq, I think you 
would be pleased to see the incredible coverage of air power 
over that country supporting the forces on the ground and 
supporting key objectives. We are targeting the Iraqi regime, 
Saddam's command and control systems, weapons of mass 
destruction, security apparatus in the regular forces, who have 
often used brutal oppression and treachery to sustain the 
regime, and the Iraqi military forces engaged against our 
marines, soldiers and airmen on the ground.
    Our first and parallel campaign, to support the suppression 
of enemy air defenses, Scud hunting, and information operations 
have and will continue to enable the maneuver of maritime and 
special operations forces to operate under the umbrella of air 
dominance throughout the theater.
    Our extended preparation of battle space since last summer, 
consisting of nearly 4,000 combat sorties and year of planning 
has resulted in unprecedented flexibility in achieving decisive 
effects. The 10 years that we've been in Operation Northern 
Watch and Operation Southern Watch have provided us with crews, 
about 70 to 75 percent of whom are combat experienced as they 
enter into this conflict.
    Mr. Chairman, I would like to note that to date, the Iraqi 
Air Force has not flown a single sortie against coalition 
forces or the Iraqi people. This is airspace dominance. This is 
what General Jumper has been working on for his whole life, 
this is what he promised, and we are delivering. This is what 
we pledged to deliver to our combatant commanders and to our 
Nation, should the President call upon us to do so. Mr. 
Chairman, you are quite right, they have performed superbly, 
along with their colleagues on the ground and at sea.

                             TRANSFORMATION

    As we prepare for future uncertainty, we fully support the 
Department's continuing efforts to balance near-term readiness 
and operational requirements with long-term transformation of 
our Armed Forces. Our challenge is to fight the global war on 
terrorism while simultaneously transforming, and we must do 
both.
    Now while we face near-term budget pressures, we 
nevertheless must invest for the future. Otherwise, we may be 
forced to pay more later in dollars and perhaps even in lives. 
Of utmost importance to us is our continued focus on 
warfighting and delivering a full spectrum of air and space 
capabilities to combatant commanders. Through the efforts of 
this committee, your colleagues in the Congress, and Secretary 
Rumsfeld, I am proud to report that we are currently meeting 
these objectives.

                            HOMELAND DEFENSE

    We have some good news to report on calendar year 2002, Mr. 
Chairman. It was a year of challenging operations. In calendar 
year 2002 we continued our expanded homeland defense mission, 
providing 25,000 fighter, tanker and airborne warning sorties. 
This was made possible only through the mobilization of over 
30,000 airmen in the Air Force Reserve and Air National Guard. 
They have conducted over 75 percent of all the Noble Eagle 
missions and they have done it superbly.
    Today we continue this effort, in fact it's a heightened 
effort, with more than 200 military aircraft dedicated to 
providing combat air patrols, for on-call support to high risk 
areas, cities and key facilities in the United States. In 
Operation Enduring Freedom, we made joint operations on a 
landlocked nation possible. We flew more than 40,000 sorties, 
over 70 percent of the coalition air operations, in 2002 alone, 
and of our 8,000 refueling missions we are proud to point out 
that 55 percent were to Navy and Marine Corps, and coalition 
aircraft.

                              AFGHANISTAN

    In Afghanistan, our special operations teams developed new 
ways to bring air and space power to bear in a variety of 
engagements. Our combat controllers integrated new technologies 
and precision weapons to do close air support from 39,000 feet, 
using B-1 and B-52 bombers, and at lower altitudes for our Air 
Force, Navy and Marine Corps fighter bombers. And we're now 
developing better processes to target and engage time-critical 
moving targets.

                                  IRAQ

    Yesterday, Mr. Chairman, we flew 648 Air Force missions in 
Iraq, over Iraq. Our colleagues in the Navy and Marine Corps 
also flew many hundred missions. To date, in the last 5 days of 
this conflict, sir, we have flown over 4,800 sorties over Iraq. 
That includes bombers, fighters, our Combat Search and Rescue 
(CSAR) and special operators, and our Command, Control, 
Intelligence Surveillance and Reconnaissance (C\2\ISR), as well 
as tankers and cargo aircraft. So we have been working quite 
hard.

                                  B-1

    Continuous improvements in readiness and technology made 
these successes possible. With your support we successfully 
consolidated our B-1 bomber fleet and improved overall 
readiness. Its mission-capable rate was up 10 percent last year 
and is now over 71 percent, the highest in history, and we are 
proud to point out, Mr. Chairman, that the B-1 has flown over 
Baghdad with 24 weapons on each sortie, 24 highly precise 
weapons on each sortie.

                                  C-5

    The increases funded by this committee and the Congress 
that you have supported is paying off well. Sixteen of 20 
weapons systems improved mission-capable rates last year. The 
C-5B achieved its highest mission-capable rate since 1994, it's 
now at 73 percent. The B-2 improved over 50 percent.

                         A-10 AND F-15 AIRCRAFT

    The A-10, a workhorse working with our Army ground forces 
right now, is up 8 percent, and our F-15s are up over 5 
percent. These are the best mission-capable rates we have 
experienced in 5 years and the best annual increases we've 
achieved since the mid-1980s.
    Mr. Chairman, while we are making great progress in 
adapting the Air Force, we face many challenges to our 
continued superiority as you are well aware. The increasing 
proliferation of advanced surface-to-air missile systems 
threatens our ability to gain and maintain air superiority in 
potential conflicts. Manned portable surface-to-air missiles 
have proliferated extensively, and in fact new ballistic 
missile and cruise missile technologies are spreading.

                             RUSSIAN SU-37

    An advanced fighter has already been produced, specifically 
the Russian SU-37, that is superior to our best fighter, a 
prototype that has not yet been explored.
    We are also now facing the undeniable reality that other 
nations are investing in American military technologies and 
fielding the best our aerospace industry has to offer in their 
air forces. While the investment of our good friends and allies 
is a great value to our alliances and industrial base, superior 
capabilities are now or shortly will be present in American-
produced airplanes that don't fly the American flag. And I 
remind you, sir, that in the late 1930s, the aerospace industry 
of America, 38 percent of its sales were overseas sales, 
because they did not have enough of a market here in the United 
States, and some of the best technology was in fact being 
exported to other countries in the late 1930s, and some of that 
technology, regrettably, we had to face in combat.

                             AGING AIRCRAFT

    Now while other nations are modernizing, we continue to 
employ aging systems that are becoming more difficult to 
operate and more expensive to maintain. The average age of the 
operational Air Force fleet is over 22 years per aircraft. Even 
with planned aircraft procurements, the total fleet average age 
is expected to increase to 27 years by the year 2020.
    We benchmark this by noting how many of existing aircraft 
that are flying, Mr. Chairman, were flying prior to my being 
commissioned as an Ensign in the United States Navy, or prior 
to General Jumper being commissioned a Second Lieutenant in the 
United States Air Force. And you should know, all of our tanker 
aircraft that are flying today were flying before General 
Jumper was commissioned a Second Lieutenant, and a goodly 
number of the E models were flying when I was commissioned an 
Ensign. I'm old, but these planes are older.
    In the way ahead, our proposed fiscal year 2004 budget 
addresses a number of our challenges and supports the 
Department's priorities. It accelerates our modernization and 
joint capabilities and maintains the gains in readiness and 
people programs that we achieved last year. Most importantly, 
it gets money into our procurement programs and funds essential 
capabilities our warfighters need.
    I strongly request that you support these major programs so 
that we can get our costs out and we can get reliability up.

                                MANPOWER

    Our number one investment priority remains our people. The 
budget fully supports our authorized total force end strength, 
funds our education and force development initiatives, puts us 
on track to eliminate inadequate housing, and reduces out-of-
pocket housing expenses on schedule with Secretary Rumsfeld's 
objectives.
    We appreciate your continued support of pay raises for our 
uniformed and civilian airmen, and they truly, truly appreciate 
the way this has been done, with the disproportionate amounts 
going to our most senior enlisted.

                               READINESS

    Our readiness budget increases by 6 percent. It funds an 
expanded $6 billion flying hours program, and sustains the 
positive trends we've achieved in our readiness rates.
    Our proposal increases our infrastructure investment 
compared to the fiscal year 2003 requested level and keeps us 
on track to meet the Department's goal of a 67 year 
recapitalization rate by fiscal year 2008.

                                 F/A-22

    Finally, I'm proud to report our proposed budget increases 
investment in new technologies by 5 percent over last year. 
Next year we will fund 20 F/A-22s with new crew, continuing our 
move to sustained production rate. The program is improving and 
the Raptor is currently meeting or exceeding all key 
performance related requirements. We have a structure to do 
upgrade spirals to focus on developing systems with inherent 
air-to-ground capabilities, and have recently delivered our 
initial production aircraft to Nellis Air Force Base.
    Now we are experiencing some difficulties with the new 
program, and this is one that is dramatically dependent on 
software, one of the greatest advances in aviation in our 
history. The software integration and test is an issue that we 
are battling through. Mr. Chairman, General Jumper and I 
personally got involved in this program in July of last year, 
and in the course of those 8 months we have airplanes now 
either being delivered on time or early. We have taken care of 
all foreign object damage production techniques that were 
happening with the contractor, we have fixed the problem of fin 
buffet, we are making test forms across the board, both in 
terms of flying test points, logistic test points.
    We have basically narrowed down what needs to be done to 
push this aircraft through to completion, and the software 
stability is something we're working on very, very hard. It 
represents the classic challenge of transitioning from 
development to production, and when something is this software-
dependent, it is very difficult to bring everything together, 
and then when we bring it together, we try and make it work.
    What is different about the program, Mr. Chairman, is we 
now have a more realistic cost-estimating regime and a far 
better management team in place to anticipate the likely 
challenges we will face.
    We remain committed to our F/A-22 buy-to-budget strategy, 
and will maximize the number of aircraft we procure within the 
pre-established budget caps. This serves as an insurance policy 
for the taxpayer and an incentive for the Air Force and our 
industry suppliers to get it done right. With your support, we 
will continue to deliver the only operational system we will 
field this decade that puts iron on the enemy.
    And if I may add, Mr. Chairman, we are dedicated to 
bringing the system on line because it will alter how we fight. 
If we can't, John Jumper and I will be the first to recommend 
to Secretary Rumsfeld that this program be terminated. We ask 
you to give us a chance to deliver the system, a system about 
which you would be very proud, a system that will parallel the 
C-17, a program that almost died, almost died, and almost died, 
and is now being the absolute workhorse of this battle.
    More cuts and restrictions at this juncture will only 
increase inefficiencies and costs. We need a blessed year or 
two of stability to be able to bring this home.
    Mr. Chairman, we are also working with Secretary Rumsfeld 
and our colleagues to implement a range of sensible management 
practices that we believe will help minimize obstacles to a 
path of effective future administration of the Department. In 
particular, we are looking at measures to transform our 
personnel, acquisition, administrative and range management 
practices.

                      SUPPLEMENTAL APPROPRIATIONS

    And yes, Mr. Chairman, we absolutely support your point on 
the supplemental. Sixty two point some billion dollars is 
something that we can't take out of hide, clearly. We see 
ourselves going broke sometime in the early summer. We believe 
that this is a reasonable estimate of what we need to go 
forward, and we certainly agree with you that having the 
supplemental dealt with by Easter would be a dramatic boon to 
our forces because we would be able to deal with the problem 
that we have been cash flowing expenditures because of the war, 
leaving us with a number of gaps, and adjusting those gaps with 
a supplemental would be a major issue.
    We thank you for the investments you've made in our future, 
for the trust that you have placed in our concerted effort to 
provide America with aerospace dominance.
    Mr. Chairman, if I may, it is my distinct pleasure to come 
to work every day and work with the finest colleague I have 
ever worked with, John Jumper. Thank you.
    Senator Stevens. General Jumper.
    General Jumper. Thank you, Mr. Chairman, Senator Inouye, it 
is a pleasure to be before this distinguished committee again 
this year and to be able to talk about our great United States 
Air Force. And your airmen, Mr. Chairman, are proud to stand 
beside the soldiers, sailors and marines engaged in the 
conflict that commands all of our attention today.
    Let me add also what a pleasure it is for our United States 
Air Force to have this veteran sailor who sits beside me here 
today, a graduate of the United States Navy after 23 years and 
a commander of a ship, it's a pleasure to have someone who 
brings command responsibility and the understanding of command 
and warfare to our United States Air Force. He has graduated 
from an ancient mariner to an elder airman, and he has made 
that transition very well, sir, and I am very proud to serve 
with him.

                         MISSION CAPABLE RATES

    Sir, I would say in the present operations, we are seeing 
mission-capable rates on our platforms over there between 80 
and 90 percent. This has been enabled by the attention this 
committee has paid over the last few years to get the parts and 
the assets to the people out there who fix these airplanes.

                                  C-17

    The secondary effect is the effect it has on retention and 
recruiting. When you get the part to the airman on the flight 
line to fix the airplane, you have just given that airman our 
vote that we care about what he does, and that translates 
directly into retention rates and we are enjoying some of the 
highest retention rates in the Air Force that we've seen for a 
very long time for our experienced airmen. So, I thank you for 
all the attention over the years you have paid to that and as 
the Secretary pointed out, the C-17 example, we have seen that 
great program mature into an aircraft that we just could not do 
without in this current conflict.
    We have also seen support from this committee on a new 
series of weapons like the Joint Direct Attack Munitions 
(JDAM), and I'm happy to report that having found the Global 
Positioning System (GPS) jammers in and around Baghdad, we were 
able to take those jammers out with GPS-aided bombs, the JDAM, 
the very bomb the jammer was designed to defeat, because it was 
such a great weapon.

                         OPERATION NOBLE EAGLE

    As the Secretary pointed out, we don't do this alone. In 
Operation Noble Eagle, over 80 percent of the effort that goes 
in to patrolling the skies over America is done by our National 
Guard and Reserve. Although today we have the 388th Fighter 
Wing from Hill Air Force Base flying Combat Air Patrols (CAPs) 
as we speak over Washington D.C., over 80 percent of those on a 
day-to-day basis are performed by the Guard and Reserve, and 
most of those over the United States today are in fact done by 
the Guard and Reserve.

                                 KC-135

    As my boss pointed out, we're also dealing with the effects 
of an aging force and all you have to do is go out to Tinker 
Air Force Base and see the corrosion that is eating away at our 
KC-135 fleet to be convinced that you cannot fly airplanes 
forever. And we will continue to try to do our best to replace 
the worst of those airplanes as soon as we can.

                                 F/A-22

    I would also add, sir, to my boss's description of the F/A-
22, in addition to the data he has provided, we also have 
talked to the pilots on a day-to-day basis, and the pilots who 
are out flying the airplane come back with stories of the most 
magnificent increase in combat capability that they have 
imagined. The airplane is performing superbly all of the things 
that we need the most, the super cruise, the stealth qualities, 
and as the boss pointed out, we still have to work on the 
software integration problem, but we have devoted our full 
attention to this, the Secretary and I, and we see a way 
through this. And again, I add my plea for program stability as 
we go into the future.
    There are many other things that are transformational that 
are ongoing with regard to space and other weapons developments 
that we're excited about, but the thing that we're most excited 
about is our people. And you all get to travel around, you get 
to see our people in action out there on the flight lines and 
in operation, and I think we can all be very proud of the young 
Americans we're putting out there.

                        LACKLAND AIR FORCE BASE

    One of the things I like to do is go to Lackland Air Force 
Base on Fridays. Every Friday we bring in a thousand new airmen 
into our Air Force, and they parade by and it's a wonderful 
ceremony. But a fun thing to do is to go sit in a dark corner 
somewhere and watch the youngsters get back with their parents 
after their parents haven't seen them for several weeks. And if 
you look hard enough, after every ceremony, you will see some 
young airman standing in front of his or her mother or father 
saying yes, mom, it is me, because the parents don't even 
recognize the kid they dropped off just a few short weeks ago. 
And the dad's standing back saying this ain't my kid, this kid 
is standing up straight, saying ma'am and sir, but it is.

                             SOUTHWEST ASIA

    And you go out there and you see them in action. I was 
recently at a base in Southwest Asia and I was approached by a 
young captain combat engineer with his chief master sergeant, 
who came up and saluted, and said, sir, I'm building this 
runway. And he's over there building a runway, not a minor 
project by any standard. And he says, sir, I started this 
runway a while ago, they're trying to send me home in a couple 
of weeks because I'm due to rotate. I'm here to tell you, the 
chief and I are here to tell you that we're not leaving until 
this runway is done, this is my runway. And that's the way they 
feel and operate, and we see it out there all the time. It is 
something for us all to be proud of.
    I love to talk to World War II veterans, you all know this, 
but some of them don't know that this generation when properly 
motivated are every bit as dedicated and patriotic as any 
generation that ever served, and I'm proud to be a part of 
that.

                           AIR FORCE ACADEMY

    Finally, Mr. Chairman, let me just make one note about the 
United States (U.S.) Air Force Academy. The Secretary and I 
have devoted personal attention--you notice that there have 
been no spokesmen on this issue. This is an issue we're taking 
on personally. Your constituents out there who come to you and 
ask for nominations to the United States Air Force Academy need 
to know that it's a safe place to go, that it's a place where 
we devote our full energy to developing officers of high 
character and high moral standards.

                           PREPARED STATEMENT

    We will implement a set of corrections at the Air Force 
Academy that will return us to those high standards, and again, 
the Secretary and I will personally oversee their 
implementation and returning the United States Air Force 
Academy to the superb institution that it really is.
    Thank you, Mr. Chairman, I look forward to your questions.
    [The statement follows:]
    Prepared Statement of James G. Roche and General John P. Jumper
    Mr. Chairman and members of the committee, the Air Force has an 
unlimited horizon for air and space capabilities. Our Service was borne 
of innovation, and we remain focused on identifying and developing the 
concepts of operations, advanced technologies, and integrated 
operations required to provide the joint force with unprecedented 
capabilities and to remain the world's dominant air and space force.
    The Wright brothers' historic flight in 1903 ushered in the dawn of 
a dramatic era of scientific, cultural, and technological advances. As 
the Air Force celebrates this centennial of powered flight, we do so 
with the recognition that, despite the daunting challenges of a more 
dynamic security environment, the next hundred years will witness 
equally fantastic achievements. The 2003 Air Force Posture Statement 
reflects this optimism. In this report, we relate some of our 
accomplishments of 2002 as well as our vision of an innovative and 
adaptive force capable of guaranteeing American air and space dominance 
for the decades to come. Our successes are America's successes; they 
are the direct result of the selfless and unconditional service by men 
and women of the Total Air Force and their families.
    During the past year, and in the midst of combat and a variety of 
contingency operations, we evaluated, implemented, and validated a host 
of technological advances, organizational changes, and concepts of 
operations. These enabled us to deliver desired effects faster and with 
greater precision than at any time in the history of warfare. Such 
adaptation is characteristic of our Service, as airmen continually 
strive to push innovation ever forward en route to unprecedented air 
and space capabilities for combatant commanders, the joint force, and 
our Nation. In the year ahead, we will move our expeditionary Air Force 
closer to realizing the transformational imperatives of this new era, 
machine-to-machine digital integration of manned, unmanned and space 
assets, and joint command and control. Our concepts of operations 
leverage this integration, and expand our asymmetric advantages in air 
and space--advantages that are fundamental to defending America's 
interests, assuring our allies and coalition partners, and winning the 
Nation's wars.
    We recognize the responsibility for America's security is not one 
we shoulder alone. We work tirelessly toward developing and training 
professional airmen, transitioning new technologies into warfighting, 
and integrating the capabilities of our sister services, other 
government agencies, and those of our friends abroad to act in the most 
efficient and effective manner across all operations--from humanitarian 
to combat missions. At the same time, we pay special attention to the 
consolidating aerospace industry, our acquisition processes, and our 
critical modernization challenges, to ensure we will be able to draw 
upon our core competencies for decades to come.
    Blessed with full endorsement from the American people, the 
Congress, and the President, we will remain the world's dominant Air 
Force. We are honored to serve with America's airmen, and we sincerely 
appreciate the confidence in our commitment and capability to provide 
our great nation with superiority in air and space.

                              INTRODUCTION

    As America approaches the 100th anniversary of powered flight, the 
Air Force realizes that the nation is only in the adolescence of air 
and space capabilities. Yet we envision a future that will manifest 
dramatic advances in propulsion, operational employment, weapons 
systems, information technology, education, and training for our air 
and space forces. It is a future of unprecedented, seamless integration 
of air and space capabilities with joint command and control at the 
operational level of war, and machine-to-machine integration at the 
tactical level. We are pursuing these changes--some elementary, others 
revolutionary--which will dramatically escalate the capabilities 
available to the joint forces of the United States, perpetuate American 
air and space dominance, and redefine the nature of warfare.
    If there was any ambiguity about the nature of the security 
environment in this new century, the attacks of September 11, 2001 
crystallized the setting. Just as the turmoil of the previous decade 
eluded prediction, the dynamic setting of the decades ahead poses even 
greater predictive challenges as centers of power and sources of 
conflict migrate from traditional origins. No longer will it suffice to 
prepare for real and perceived threats from nation-states. Instead, 
America must apply the sum of our operational experiences and 
experimentation to develop dynamic, flexible, and adaptable forces, 
capable of dissuading, deterring, and defeating a much wider range of 
potential adversaries, while still assuring our friends and allies.
    This fluid setting underscores the need for doctrinal agility, and 
expeditious and responsive acquisition, planning, and execution across 
the spectrum of capabilities in support of homeland security--from the 
most difficult anti-access scenario to humanitarian relief. As new 
generations of technology proliferate among potential adversaries, we 
also are reminded of the need to keep pushing technology forward. In 
less than one hundred years, we elevated from a Kitty Hawk biplane 
flying 100 feet on a 12-second flight, to a host of sophisticated, 
stealthy aerial vehicles capable of reaching any place in the world, 
and an array of satellites that circle the globe continuously. We do 
not rest on these achievements, but instead engage a new generation of 
innovation. Therefore, our mission is to make calculated research, 
development, and procurement decisions with the resolve to integrate 
all of our combat, information, and support systems into an enterprise 
architecture that contributes joint air and space capabilities to help 
win the Nation's wars.
    Meeting these requirements also warrants our continued 
transformation into an expeditionary force with the culture, 
composition, and capabilities to fulfill our evolving operational 
tasks. As the scope of global contingencies requiring American 
involvement has multiplied, we have witnessed the substantial value of 
agility, rapid response, and integration. Thus, we are becoming ever 
more responsive in time, technology, and training, and in the process, 
we are elevating Air Force contributions to joint capabilities, while 
developing our airmen as joint warfighters.
    A year ago, Secretary Rumsfeld laid out a number of key priorities 
for the Department of Defense (DOD). All of these--from pursuing the 
global war on terrorism and strengthening joint warfighting 
capabilities, to streamlining the DOD processes and improving 
interagency integration--demand across-the-board changes in the way the 
Defense Department operates. The Air Force has taken advantage of this 
opportunity to evaluate and strengthen our capabilities, and to 
fundamentally drive our investment strategy.
    As we contemplate more than a decade of unprecedented success using 
air and space power, we recognize that we never fight alone. The 
emerging interdependence of joint, coalition, and alliance partnerships 
throughout a decade of contingency warfare has been a profound lesson 
learned. Through cooperative planning, we will realize the full 
potential of our Service--bringing to bear fully integrated air and 
space capabilities.
    It is our imperative to approach this planning and integration with 
innovation and vision, fundamentally focused on capabilities. All of 
the armed forces are focusing on meeting the Quadrennial Defense 
Review's ``1-4-2-1'' force-shaping construct, by defining the 
fundamental capabilities required to meet the challenges of a changing 
world. These are: to defend the United States through Homeland 
Security; to deter aggression and coercion in the four critical regions 
of Europe, Northeast Asia, Southwest Asia and the Asian littorals; to 
swiftly defeat aggression in overlapping major conflicts while being 
capable of decisive victory in one of those conflicts; and to conduct a 
number of smaller scale contingencies. A revitalized, capabilities-
focused approach to operational military requirements will allow us to 
meet these missions.
    Our focus on capabilities for an uncertain future has inspired us 
to adapt a new the way we organize, train, and equip our forces. We 
have begun by developing Task Force Concepts of Operations (TF CONOPS), 
which will define how we will fight and integrate our air and space 
capabilities with joint, coalition, and alliance forces. The 
requirements that emerge from these operational concepts will guide a 
reformed acquisition process that will include more active, continuous 
partnerships among requirement, development, operational, test, and 
industry communities working side-by-side at the program level.
    This process can only be successful with the help of a vibrant 
defense industry. Yet today the aerospace industry is consolidating to 
a point that threatens to diminish the advantages of competition. This, 
in turn, can lead to loss of innovation, diminished technical skill 
base, lower cost efficiencies, and other challenges. We must foster 
increased competition to ensure the long-term health of an industrial 
sector critical to our national security. While the Air Force will 
continue to advance the vision and associated capabilities for air and 
space, we also must challenge industry in order for it to stay on the 
cutting edge of technology and efficient management practices.
    Finally, transforming our force will not be possible without a 
process to educate, train, and offer experience to the right mix of 
Active Duty, Air National Guard, Air Force Reserve, and civilian airmen 
who understand the nature of our changing security environment. To 
achieve this, we will evolve what we have traditionally called the 
``personnel'' function in new ways so as to blend Professional Military 
Education, advanced academic degrees, and assignment policies under the 
auspices of ``Force Development.''
    This is the United States Air Force in 2003--inherently innovative, 
tirelessly dedicated, and comprised of the very best airmen and 
capabilities in the world to ensure American security and defend her 
interests. This is what our nation expects, and we will continually 
meet that expectation.

                               WHAT WE DO

    The United States armed forces exist to fight and win our Nation's 
wars, which no service can accomplish alone. The Air Force's pivotal 
role is to deliver fully capable and integrated air and space power to 
the Joint Force Commander (JFC). By dominating the media of elevation, 
the Air Force offers unique warfighting capabilities that leverage the 
strengths of surface forces and expand the range of potential effects.
    Air and space are realms with unlimited horizons for discovery and 
development. While the Air Force has made tremendous strides in 
realizing the visions of early airmen and exploiting the operational 
potential in each medium, we know there is an array of capabilities as 
yet undiscovered. As the Air Force strives to realize these 
possibilities, we deliver a multitude of air and space achievements for 
joint warfighting.
    Although relatively short, Air Force history reveals fundamental 
competencies that are core to developing and delivering air and space 
power--those unique institutional qualities that set the Air Force 
apart from the other services and any other military force in the 
world. By identifying and keeping these competencies foremost in our 
vision, we are able to more effectively advance the unique 
capabilities, as well as the ultimate effects, the Air Force provides 
to the joint force and the Nation.
    The Air Force continually develops areas of expertise that make us 
the preeminent air and space force in the world. Previously, we 
distilled these into six distinctive capabilities which we referred to 
as our ``core competencies''--Air and Space Superiority, Global Attack, 
Rapid Global Mobility, Precision Engagement, Information Superiority, 
and Agile Combat Support. However, just as our concepts of operations 
and capabilities continuously evolve, so also does the way in which we 
articulate Air Force competencies. With deeper refinement, we learned 
there are more fundamental elements to what we are as an Air Force and 
how we develop our capabilities for joint warfighting. These are our 
underlying institutional air and space core competencies--those that, 
in fact, make the six distinctive capabilities possible: Developing 
Airmen, Technology-to-Warfighting, and Integrating Operations. These 
three air and space core competencies form the basis through which we 
organize, train, and equip and from which we derive our strengths as a 
service.

(1) Developing Airmen--The heart of combat capability
    The ultimate source of air and space combat capability resides in 
the men and women of the Air Force. The potential of technology, 
organization, and strategy are diminished without professional airmen 
to leverage their value. Our Total Force of Active Duty, Guard, 
Reserve, and civilian personnel are our largest investment and most 
critical asset. They are airmen, steeped in our expeditionary Service 
ethos. Therefore, from the moment they step into the Air Force through 
their last day of service, we are dedicated to ensuring they receive 
the precise education, training, and professional development necessary 
to provide a quality edge second to none. The full spectrum 
capabilities of our Air Force stem from the collective abilities of our 
personnel; and the abilities of our people stem from career-long 
development of professional airmen.

(2) Technology-to-Warfighting--The tools of combat capability
    The vision of airmen in employing air and space power fundamentally 
altered how we address conflict. As the leader in military application 
of air and space technology, the Air Force is committed to innovation 
and possesses a vision to guide research, development, and fielding of 
unsurpassed capabilities. Just as the advent of aircraft revolutionized 
joint warfighting, recent advances in low observable technologies, 
space-based systems, manipulation of information, precision, and small, 
smart weapons offer no less dramatic advantages for combatant 
commanders. The Air Force nurtures and promotes its ability to 
translate vision into operational capability in order to produce 
desired effects. Our innovative operational concepts illuminate the 
capabilities we need, allowing us to develop unsurpassed capabilities 
to prevail in conflict and avert technological surprise.
    The F/A-22 is demonstrative of this ability to adapt technology to 
warfighting capabilities. Originally envisioned as an air superiority 
fighter, it has been transformed into a multi-role system. The F/A-22 
not only brings to bear warfighting capabilities without equal for 
decades to come, but also includes those we did not foresee at its 
inception. Collectively, the platform's supercruise, stealth, 
maneuverability, and novel avionics will deliver the ability to create 
crucial battlefield effects to the hands of the warfighter, and allow 
access to revolutionary concepts of operations.

(3) Integrating Operations--Maximizing combat capabilities
    Effectively integrating the diverse capabilities found in all four 
services remains pivotal to successful joint warfighting. The Air Force 
contributes to this enduring objective as each element of air and space 
power brings unique and essential capabilities to the joint force. Our 
inherent ability to envision, experiment, and ultimately execute the 
union of a myriad of platforms and people into a greater, synergistic 
whole is the key to maximizing these capabilities. In so doing, we are 
able to focus acquisition and force planning on systems that enable 
specific, effects-based capabilities, rather than on individual 
platforms.
    Embedded in our exploration of innovative operational concepts is 
the efficient integration of all military systems--air, land, maritime, 
space, and information--to ensure maximum flexibility in the joint 
delivery of desired effects across the spectrum of conflict, from war 
to operations short of war. However, effective integration involves 
more than smart technology investment--it also requires investigation 
of efficient joint and service organization and innovative operational 
thinking. Thus, investments in our people to foster intellectual 
flexibility and critical analysis are equally as important as our 
technology investments.
    Collectively, our air and space core competencies reflect the 
visions of the earliest airmen and serve to realize the potential of 
air and space forces. We foster ingenuity and adventure in the 
development of the world's most professional airmen. We seek to 
translate new technologies into practical systems while we encourage 
intellectual innovation at every level of war. And, we drive 
relentlessly toward integration in order to realize the potential and 
maturation of air and space capabilities.
    Our proficiency in the three institutional air and space core 
competencies underpins our ability to deliver the Air Force's six 
distinctive capabilities in joint warfighting. In turn, our 
capabilities enable desired effects across the spectrum of joint 
operations through our task forces drawn from our air and space 
expeditionary forces. The results of this relationship between core 
competencies, distinctive capabilities, and operational effects are 
manifest in the array of successful missions the Air Force accomplished 
in the past year and those we continue to execute.

Expeditionary Construct
    Our core competencies reflect a legacy of innovation and adaptation 
to accomplish our mission. This point is underscored by the fact that, 
in spite of over a 30 percent reduction in manpower in the past twelve 
years, we have faced an exponential increase in worldwide taskings. 
Intensifying operations tempo (OPSTEMPO) requires significant changes 
in the way our force trains, organizes, and deploys to support JFC 
requirements. We are a truly expeditionary force--the nature of our 
``business'' is deployed operations.
    The Air Force meets JFC requirements by presenting forces and 
capabilities through our Air and Space Expeditionary Force (AEF) 
construct. This divides our combat forces into ten equivalent AEFs, 
each possessing air and space warfighting and associated mobility and 
support capabilities. A key element of our ability to deliver these 
tailored and ready expeditionary forces is our development of Task 
Force Concepts of Operations. Our TF CONOPS describe how we fight and 
how we integrate with our sister services and outside agencies. They 
are the fundamental blueprints for how we go to war. Combined with our 
AEF construct--the principal tool we use to present expeditionary 
wings, groups, and squadrons--TF CONOPS will guide our decisions in 
operational planning, enable us to provide scalable, quick-reacting, 
tasked-organized units from the ten standing AEFs; and sustain our 
ability to ensure trained and ready forces are available to satisfy 
operational plans and contingency requirements.
    The AEF construct incorporates a 15-month cycle during which two 
AEFs are designated as lead for a 90-day ``eligibility'' period. During 
this period, the two are either deployed or on alert for daily, 
worldwide expeditionary taskings, for which they are tailored and 
presented to the JFC as expeditionary squadrons, groups, and wings 
(depending on the specific requirement.) Meanwhile, the remaining eight 
AEFs are in various stages of reconstituting, training, or preparatory 
spin-up. It is during this preparatory time (approximately two months) 
that we integrate the training-to-task of AEF squadrons immediately 
prior to their on-call window.
    Yet, it is important to note that while our combat forces cycle 
through deployment vulnerability periods, they sustain wartime 
readiness throughout the 15-month training and preparation cycle--a 
critical driver of our 90-day eligibility window. Our AEF cycle thus 
precludes the need for ``tiered'' readiness by allowing our combat 
forces to remain current and capable for any contingency or operational 
plan.
    While ensuring necessary capabilities for the JFC, AEF cycles allow 
us to provide our airmen with a more stable and predictable environment 
in which to train, re-fit, and equip. In addition, AEF scheduling makes 
it easier and more practicable for the Air Reserve Component (ARC) 
forces--Air Force Reserve Command (AFRC) and Air National Guard (ANG)--
to bring their essential contributions to bear by allowing them to plan 
definitive absences from their civilian employment. This is a critical 
advantage of the AEF construct, as ARC forces comprise nearly half of 
the forces assigned to AEFs and contribute the majority of forces for 
some mission areas.

Operations in 2002
    Confident in our air and space capabilities, and committed to 
meeting any mission tasked, the Air Force completed an unprecedented 
array of operations and exercises in 2002. From the mountain ranges in 
Afghanistan and the jungles of the Philippines to the deserts of the 
Middle East, and across every continent and body of water, the Air 
Force joined with land and naval forces to secure America's national 
objectives. With each mission, the joint force grows more capable as it 
applies vision, experimentation, and integration to every undertaking. 
We do not act as individual services, but in concert as joint 
warfighters, as we prevail in the war on terrorism and in all 
undertakings.
    Assuring our Nation's citizens, the Air Force conducts a range of 
alert postures involving more than 200 military aircraft at over 20 
airbases for Operation NOBLE EAGLE (ONE). In conjunction with 
unprecedented NATO airborne warning support and other U.S. assets, we 
have provided continuous combat air patrols over sensitive/high risk 
areas, and random patrols over other metropolitan areas and key 
infrastructure. Last year, we flew over 25,000 ONE fighter, tanker, 
airlift, and airborne warning sorties, made possible only through the 
mobilization of over 30,000 reserve component airmen. In fact, the ANG 
and AFRC have effected over 75 percent of the total ONE missions. We 
will continue this critical mission, as we execute our most fundamental 
responsibility--homeland defense.
    Throughout Operation ENDURING FREEDOM (OEF), the USAF has 
maintained a continuous, steady-force presence in Afghanistan and the 
rest of the area of responsibility with more than 14,000 airmen. Air 
Force assets provide crucial intelligence and situation awareness, 
combat power, and support capabilities for the combatant commander. A 
key reason for American military success in the region is the 
performance of Air Force special operations airmen. Working in teams 
with other special forces, ground units, and coalition elements, airmen 
special operators heroically bring to bear the full weight of air and 
space capabilities--from the ground. They introduce our adversaries to 
the full lethality of our airmen, fully integrated on the ground, in 
the air, and from space.
    Fully engaged in all aspects of the war on terrorism, from mobility 
to close air support, our aircraft and crews flew more than 40,000 OEF 
sorties in 2002--over 70 percent of all coalition sorties. Over 8,000 
refueling missions marked the linchpin capability for the joint fight--
the tanker force--while the magnificent achievements of airlift assets 
rounded out overwhelming mobility efforts. Simply put, Air Force 
mobility forces made operations in a distant, land-locked nation 
possible.
    Beyond air operations, we operated and maintained several 
constellations of earth-orbiting satellites, and in 2002 we launched 18 
missions with a 100 percent success rate--including the first space 
launches using Evolved Expendable Launch Vehicles. These activities 
bolstered America's assured access to space and ensured vigorous, 
global intelligence, surveillance and reconnaissance (ISR), missile 
warning, precision navigation and timing, communications, and weather 
systems. In addition, manned, unmanned, and space ISR assets not only 
delivered unprecedented battlefield awareness, but with the Predator 
unmanned aerial vehicle (UAV), also introduced transformational combat 
capabilities.
    ONE and OEF levied particularly heavy demands on our security 
forces. In CONUS and forward locations, increased alert postures 
warranted significant increases in security personnel who constitute a 
critical element of our force protection capabilities. These demands 
have raised our force protection posture worldwide and have forced us 
to adjust to a new ``steady state'' condition. Security forces bear the 
brunt of the adjustment effort despite a resultant baseline shortfall 
of approximately 8,000 personnel to meet the alert postures. In the 
near term, we involuntarily extended for a second year nearly 9,500 ARC 
security forces. However, in order to relieve these ARC forces, we 
concluded a two-year agreement with the Army for short-term support, 
and initiated several ongoing efforts to combine technology, new 
processes, and some manpower shifts to achieve a long-term adjustment 
to this new era.
    As we adjust, we continue to deliver force protection through the 
integrated application of counter and antiterrorism operations, and 
preparedness for chemical, biological, radiological, nuclear, and 
explosive (CBRNE) incidents. We employ a tailored selection and 
application of multi-layered active and passive, offensive and 
defensive measures. Intelligence and counterintelligence programs 
support this integrated effort and remain critical to our success. In 
this regard, we continued to develop and employ all-source intelligence 
systems; cross-functional intelligence analysis procedures; and an 
operational planning process to implement Force Protection operations 
that deter, detect, deny, and destroy threats. Our goal is to see 
first, understand first, and act first.
    Though engaged in these security enhancements and the global war on 
terrorism, our combat operations were not limited to OEF in 2002. Iraqi 
forces fired on coalition aircraft over 400 times during 14,000 sorties 
supporting Operations NORTHERN WATCH (ONW) and SOUTHERN WATCH (OSW). 
The Air Force maintained a continuous, regional presence of more than 
9,000 airmen, while air and space assets provided vital intelligence, 
situation awareness, and indications and warning to monitor Iraq's 
compliance with United Nations' directives.
    Whether on the ground or in the skies, our airmen also conducted a 
host of other missions above-and-beyond standing security requirements 
around the globe. Even though the war on terrorism is our national 
military focus, airmen joined soldiers, sailors, and marines in the 
Balkans, South America, Europe, Asia, and around the world to assure 
our friends and allies, while deterring and dissuading our adversaries.
    Worldwide humanitarian and non-combat evacuation operations 
missions remain other key tasks for Air Force personnel. In 2002, for 
example, airlift crews exceeded 2.4 million airdropped daily ration 
deliveries in Afghanistan, evacuated allied personnel at threatened 
locations around the world, and flew typhoon relief missions to Guam, 
while our explosive ordnance specialists removed unexploded munitions 
in Africa. Yet, while conducting unprecedented food, medical, civil 
engineering, and evacuation relief efforts in warring regions, we were 
also on call to perform critical, quick-response missions during 
natural or man-made crises at home. Through explosive ordnance 
disposal, firefighting, law enforcement support, and rapid medical 
response expertise, we conducted daily operations in support of local, 
state, and federal agencies. During the wildfire season, ANG and AFRC 
C-130s equipped with modular airborne fire fighting systems flew nearly 
200 sorties while assisting U.S. Forest Service firefighting efforts in 
numerous states. In addition, when Hurricane Lili endangered Louisiana, 
Air Force aeromedical and critical care forces rolled in with C-9 
aircraft to transport and safeguard 40 patients from threatened 
hospitals.

Training Transformation
    Training is a unique American military strength. As potential 
adversaries work to overcome our technological superiority, it is 
imperative we enhance this strength through improved proficiency at the 
tactical level and integration at the joint level. Training is integral 
to our core competencies and the critical enabler for military 
capabilities, so we are engaged with the other services, unified 
commands, and the Office of the Secretary of Defense (OSD) in 
developing and implementing a training transformation plan. Our 
objective is to train as we will fight, and increase the joint context 
of our exercises through live, virtual, distributed, and constructive 
environments. It is the realism of this training that gives us the edge 
in combat. This involves not only modernizing the integration of space 
and information operations on our ranges, but also planning for their 
sustainment to meet future test and training missions while 
implementing environmentally sound use and management to ensure long 
term availability. Additionally, to expand range support for current 
and emerging missions, we are embarking on a new effort to identify and 
procure environmental, airspace, and spectrum resources at home and 
abroad. Balancing competing economic and environmental needs for these 
resources is a growing challenge we face with our regulatory and 
community partners. To support this effort, DOD developed the Range and 
Readiness Preservation Initiative. This legislation recommends 
clarification to environmental laws that, as currently written and 
interpreted, can adversely affect resources available to support 
training activities at ranges.

Joint Chiefs of Staff (JCS) Exercises, Interoperability Training, and 
        Experimentation
    We advanced joint and combined interoperability skills with our 
sister services and those of 104 nations throughout 111 JCS exercises 
and Joint Task Force (JTF) experimentation, conducted in 40 foreign 
countries. Exercises ranged from large field training such as BRIGHT 
STAR, to command post exercises like POSITIVE RESPONSE, to smaller, but 
equally valuable, humanitarian exercises, as in the school 
construction, well drilling, and medical clinic visits of NEW 
HORIZONS--JAMAICA. These activities provided realistic training and 
enhanced the effectiveness of all participating nations' forces.

Task Force Enduring Look
    Success in future operations hinges upon our ability to learn from 
previous operations and exercises. To ensure we learn from ongoing 
operations and adapt accordingly, we established Task Force Enduring 
Look (TFEL). TFEL is responsible for Air Force-wide data collection, 
exploitation, documentation, and reporting for our efforts in ONE/OEF. 
The objective for TFEL is clear--provide superior support to the 
warfighter, and properly recognize and apply lessons learned during 
rather than only at the conclusion of these operations.
    Through extensive investigation and analysis, TFEL examines joint 
warfighting effectiveness, determines implications, and shapes future 
Air Force transformation of expeditionary air and space power. The task 
force documents lessons learned in a variety of products that cover 
every conceivable subject matter. As derivative campaigns unfold, TFEL 
will broaden its assessments in follow-on reports. Applying the lessons 
in these reports and adapting from our past experiences will help 
ensure we prevail in future operations.
    We are able to accomplish the full spectrum of air and space 
missions and improve our capabilities through lessons learned, by 
focusing on the best way to organize, train, and equip. Creativity, 
ingenuity, and innovation are the hallmarks of all that we do, all of 
which begins with our people.

                               WHO WE ARE

    ``No arsenal and no weapon in the arsenals of the world is so 
formidable as the will and moral courage of free men and women. It is a 
weapon our adversaries in today's world do not have. It is a weapon 
that we as Americans do have.''    President Ronald Reagan, 20 January 
1981
    America is blessed with vast resources, and chief among these is 
her people. In the same way, the Air Force relies on the officers, 
enlisted, civilians, and contractors that comprise our Total Force--
Active Duty, Guard and Reserve--for cultural strength and unbridled 
skill. Air Force strength will never reside in systems alone, but in 
the airmen operating them. Nor will our capabilities improve solely 
through technology, but instead through the adaptive insight of our 
creative and selfless professionals.
    Therefore, we recruit and retain a remarkably diverse group to 
ensure we reach the fullest potential of air and space forces. Their 
backgrounds reflect the cross-section of American culture--all races, 
religions, economic and educational backgrounds, skill and management 
levels, men and women--and make this Air Force the tremendous 
organization it is today. Just as diverse individual citizens find 
unity in the term American, our personnel embrace an identity and 
fundamental perspective as Airmen.
    The underlying qualities found in all airmen emanate from our core 
values--integrity first, service before self, and excellence in all 
that we do. Embedded in these core values are the inherent 
characteristics of our confident, capable airmen--courage, tenacity, 
professionalism, vision, pride, and, when faced with seemingly 
insurmountable obstacles, heroism. Indeed, today's airmen carry on the 
traditions and visions of the earliest generation of airmen while 
preparing for the challenges of the future.
    The diversity of our airmen energizes the advancement of America's 
air and space power. Airmen embrace transformational ideas and seek to 
apply them to every aspect of the Air Force, from organizational 
constructs to concepts of operations and employment. They are able 
stewards of the nation's space programs, advancing ideas and 
technologies for national security, as well as for the environmental 
and economic benefit of our Nation and the world. And yet, ultimately 
our standout advantage is our warrior airmen themselves, who 
demonstrate skills and dedication in combat unsurpassed by any in 
history. Whether maintaining safe skies across the United Nations' 
sanctioned no-fly zone in Iraq, hunting down terrorists in the jungles 
of the Philippines, or paying the ultimate price while rescuing fellow 
Americans in a battle on an Afghan ridge, our airmen are proven combat 
veterans. Their selflessness resonates the very best of our Service.
    Airmen are expeditionary--our natural state of operations is not 
``home station,'' but rather, deployed. After two successful cycles, 
our AEF construct has been validated as an effective means of meeting 
our Nation's expeditionary requirements. Yet we continue to enhance the 
construct, by initiating significant organizational change to ensure 
nearly every airman belongs to one of the ten AEFs. The effect has been 
a change to our airmen's mindset and culture, where an individual's AEF 
association cultivates an expeditionary perspective and a clearer 
appreciation for joint warfighting requirements and capabilities.

Force Development--A New Leadership Development Paradigm
    In the past, we addressed aspects of career development, education, 
and assignments individually, but not necessarily in a coordinated, 
connected approach. Recognizing this, and to prepare for the future 
more ably, we introduced a systemic, deliberate force development 
construct that evolves professional airmen into joint force warriors. 
This construct coordinates doctrine and policies, concentrated to 
provide the right level, timing, and focus of education, training, and 
experience for all airmen, while encompassing personal, team, and 
institutional leadership skills across tactical, operational, and 
strategic levels.
    In the 21st Century, we need air and space warriors with mastery of 
their primary skills and others who possess competency beyond their own 
specialty. However, this diversity must be deliberate to ensure the 
correct skills are paired according to institutional requirements. 
Force development encourages many to obtain a deep perspective in their 
functional area, but at the same time offers the broader perspective we 
need to complement our leadership team. We begin this transformation 
with the Active Duty officer corps and will eventually encompass the 
civilian, enlisted, and Reserve component to better meet the expanding 
challenges of tomorrow.

Education and Technical Training--Emphasis on Joint Leadership/Warfare
    As opportunities resident in advancing technologies unfold, it is 
imperative that the Air Force be able to draw upon a vibrant collection 
of educated, technically skilled, and technologically savvy airmen--
both uniformed and civilian alike. We are answering this fundamental 
need in fiscal year 2003 with aggressive and innovative initiatives to 
enhance the abilities and breadth of our force. Agile, flexible 
training is an essential investment in human capital, and our 
initiatives will ensure our investment delivers the right training to 
the right people at the right time.
    In August 2002, we began our groundbreaking Enlisted-to-Air Force 
Institute of Technology (AFIT) Program. An initial cadre of senior NCOs 
began receiving world-class, graduate education to optimize them for 
greater responsibilities and challenging follow-on assignments. We will 
also provide a major influx of officers into AFIT, Naval Postgraduate 
School (NPS), and civilian institutions. In addition, because more than 
42 percent of our civilian force will be eligible for retirement in the 
next five years, we are committing significant resources to pay for 
advanced education as well as cross-functional career broadening.
    Future military missions and contingencies will require greater 
sophistication and understanding of the security environment, and our 
expeditionary force requires airmen with international insight, foreign 
language proficiency, and cultural understanding. We are working 
diligently to expand the cadre of professionals with such skill sets 
and experiences. Our education initiatives will contribute to a major 
corporate culture shift that fosters appropriate development throughout 
our airmen's careers to meet evolving force requirements.

Diversity
    Foremost among our efforts to enhance the capabilities of our 
airmen is a passionate drive for diversity. Diversity is a warfighting 
issue; it is a readiness issue. We must attract people from all 
segments of American society and tap into the limitless talents and 
advantages resident in our diverse population if we hope to reach our 
fullest potential as a fighting force. Nurturing rich representation 
from all demographics opens the door to creativity and ingenuity, 
offering an unparalleled competitive edge for air and space 
development. Today's multi-threat world also mandates that we 
invigorate in our airmen the ability to effectively think across 
cultural boundaries and functional paradigms (or stovepipes). We will 
thus recruit, train, and retain airmen without intellectual boundaries, 
uniquely capable of integrating people, weapons, ideas, and systems to 
achieve air and space dominance.

Recruiting
    It takes tremendous effort to identify and develop such airmen, yet 
the return for the nation is immeasurable. Increased advertising, an 
expanded recruiting force with broader access to secondary school 
students, and competitive compensation prepare us to meet recruiting 
goals. Despite the challenge of mustering such a diverse and skilled 
collection of Americans, we exceeded our fiscal year 2002 enlisted 
recruiting goals and expect to surpass fiscal year 2003 objectives. We 
will adapt our goals to meet new force objectives; however, the 
capacity limitations of Basic Military Training and Technical Training 
School quotas will continue to challenge Total Force recruiting 
efforts.
    Officer recruitment presents similar challenges, yet we continue to 
attract America's best and brightest. However, we are particularly 
concerned with military and civilian scientists and engineers. We fell 
short of our accession goal for this group and have begun all-out 
recruitment and retention efforts for these critical specialties. For 
example, in fiscal year 2003 we plan to begin a college sponsorship 
program to attract scientists and engineers from universities lacking 
ROTC programs. In addition, we continue to find recruiting health care 
professionals especially difficult, so we are making adjustments to 
ensure improvement.
    We will also closely monitor ARC recruitment. Historically, the ANG 
and AFRC access close to 25 percent of eligible, separating Active Duty 
Air Force members (i.e. no break in service.) Continued high OPSTEMPO 
may negatively impact our efforts in attracting Air National Guardsmen, 
as well as drawing separating Active Duty airmen to the Air Force 
Reserve. As a result, recruiting will have to ``make up'' a substantial 
portion of accessions from that market by developing alternatives.

Retention
    The Air Force is a retention-based force. The critical skill sets 
we develop in our airmen are not easily replaced, so we expend every 
effort to retain our people--the impetus for our ``re-recruiting'' 
efforts. Overall retention plans include robust compensation packages 
that reward service, provide for a suitable standard of living, ensure 
a high quality of life, and retain the caliber of professionals we need 
to decisively win America's wars.
    For fiscal year 2002, it was difficult to calculate accurate 
retention results due to Air Force implementation of Stop Loss. 
Nonetheless, we continue to reap the benefits of an aggressive 
retention program, aided by bonuses, targeted pay raises, and quality 
of life improvements. Introducing the Critical Skills Retention Bonus 
for select officer specialties reinforces our commitment to target 
specific skills suffering significant retention challenges. However, 
many airmen retained under Stop Loss will separate throughout fiscal 
year 2003--a fact of particular concern for our rated force.
    Bonuses and special pay programs continue to be effective tools in 
retaining our members. The ANG has placed particular emphasis on 
aircraft maintenance fields, security forces, and communication and 
intelligence specialists, among others, by offering enlistment and 
reenlistment bonuses, Student Loan Repayment Program, and the 
Montgomery GI Bill Kicker Program. Another example is the flexible 
Aviation Continuation Pay (ACP) program--an important part of our 
multi-faceted plan to retain pilots. In conjunction with our rated 
recall program, our fiscal year 2002 plan resulted in a substantial 
increase in committed personnel. We have a similarly designed ACP 
program in fiscal year 2003, and developed extensions to include 
navigators and air battle managers.

Summary
    Regardless of AEF deployment or home station missions, our airmen 
accomplish their duties with firm commitment and resolute action. It's 
what we do. It's who we are: a practical, technically sound, ingenious 
force of uniformed and civilian airmen derived from this richly diverse 
nation to create the world's premier air and space power.

                           WHERE WE'RE GOING

    The first hundred years of powered flight witnessed tremendous and 
enduring innovation. We commemorate this centennial during 2003 with 
the theme, Born of Dreams, Inspired by Freedom, which recognizes the 
remarkable accomplishments of generations of airmen. Today's airmen are 
equally impassioned to bring dreams to reality as we pursue our vision 
of tomorrow's Air Force, Unlimited Horizon. Through this vision, we 
build a bridge from today's existing capabilities to those required to 
win tomorrow's wars.
    Ultimately our success will be measured by our ability to provide 
our forces with assured freedom to attack and freedom from attack. 
Achieving such victory in tomorrow's battlespace will demand our full 
integration with fellow services, allies, and coalition partners--an 
essential part of the expeditionary construct. Through our security 
cooperation efforts, we build these international defense relationships 
and allied capabilities to ensure we have the access, interoperability, 
and international support for our worldwide commitments. Toward this 
requirement, we are working with our sister services to develop truly 
joint concepts of operations that integrate the full spectrum of land, 
sea, air, space, and information warfighting capabilities. When America 
places its men and women in uniform into harm's way, we owe them 
preeminent resources, planning, and organization to achieve victory 
over any adversary.

Capabilities-Based CONOPS
    While adapting to the new strategic environment, our principal 
focus has been transitioning from a platform-based garrison force to a 
capabilities-based expeditionary force. No longer platform-centric, we 
are committed to making warfighting effects, and the capabilities we 
need to achieve them, the driving force behind our ongoing 
transformation. From this point forward, all of our operational, 
programming, and budget decisions will be supported by a predefined 
capability.
    Our emerging TF CONOPS will help make this essential shift by 
providing solutions to a variety of problems warfighters can expect to 
encounter in the future. Whether detailing our plans for operating in 
an anti-access environment or identifying how to deliver humanitarian 
rations to refugees, TF CONOPS lend focus on the essential elements 
required to accomplish the mission. They cover the complete spectrum of 
warfighting capabilities (deep strike, information, urban, 
psychological operations, etc.) and enable us to tailor forces 
(expeditionary wings, groups, or squadrons) from existing AEFs to meet 
JFC's requirements. Responsibility for CONOPS development falls to the 
Major Commands, with a senior officer on the HQ USAF Air Staff assigned 
to each CONOPS to serve as their ``Champion,'' facilitating the 
process.
    TF CONOPS directly support Secretary Rumsfeld's efforts to free 
scarce resources trapped in bureaucracy and push them to the 
warfighter. They will also be the focal point for a capabilities-based 
Program Objective Memorandum (POM). In support of this effort, our 
Capabilities Review and Risk Assessment analyzes and assesses 
shortfalls, health, risks, and opportunities, while prioritizing 
required future capabilities. This helps CONOPS developers articulate 
any disconnects between required capabilities and developing programs, 
while providing senior Air Force leadership an operational, 
capabilities-based focus for acquisition program decision-making. TF 
CONOPS include:
  --Global Strike Task Force (GSTF) employs joint power-projection 
        capabilities to engage anti-access and high-value targets, gain 
        access to denied battlespace, and maintain battlespace access 
        for all required joint/coalition follow-on operations.
  --Global Response Task Force (GRTF) combines intelligence and strike 
        systems to attack fleeting or emergent, high-value, or high-
        risk targets by surgically applying air and space power in a 
        narrow window of opportunity, anywhere on the globe, within 
        hours.
  --Homeland Security Task Force (HLSTF) leverages Air Force 
        capabilities with joint and interagency efforts to prevent, 
        protect, and respond to threats against our homeland--whether 
        within or beyond U.S. territories.
  --Space and Command, Control, Communications, Computers, Intelligence 
        Surveillance, and Reconnaissance (Space & C\4\ISR) Task Force 
        harnesses horizontal integration of manned, unmanned, and space 
        systems to provide persistent situation awareness and 
        executable decision-quality information to the JFC.
  --Global Mobility Task Force (GMTF) provides regional combatant 
        commanders with the planning, command and control (C\2\), and 
        operations capabilities to enable rapid, timely, and effective 
        projection, employment, and sustainment of U.S. power in 
        support of U.S. global interests--precision delivery for 
        operational effects.
  --Nuclear Response Task Force (NRTF) provides the deterrent 
        ``umbrella'' under which conventional forces operate, and, if 
        deterrence fails, avails a rapid scalable response.
  --Air and Space Expeditionary CONOPS is the overarching context, 
        which identifies and sequences distinctive capabilities and 
        broad-based functions that air and space power provide the JFC 
        to generate desired effects for national military objectives.
    The Air Force is transforming around these Task Force Concepts of 
Operations. In addition to serving as a roadmap for operators, the TF 
construct will form the basis for resource allocation, future system 
acquisitions, and POM submissions in order to find capabilities-based 
solutions to warfighter problems.

Science and Technology (S&T)--Wellspring of Air and Space Capabilities
    Reaching these warfighter solutions rests in large measure with 
research and development. Through robust investment and deliberate 
focus in science and technology, the Air Force invigorates our core 
competency of technology-to-warfighting. Combined with innovative 
vision, S&T opens the direct route towards transforming air and space 
capabilities. Therefore we continue long-term, stable investment in S&T 
to ensure we realize future capabilities, as well as those that may 
immediately affect existing systems.
    We are improving our S&T planning and collaboration with other 
services and agencies to ensure: we: (1) encourage an operational pull 
that conveys to the S&T community a clear vision of the capabilities we 
need for the future; (2) address the full spectrum of future needs in a 
balanced and well-thought out manner; and (3) enhance our ability to 
demonstrate and integrate promising technologies. Some of these new 
technologies--UAV systems, laser-based communications, space-based 
radar, and others--show clear promise for near-term, joint warfighting 
applications. Others present opportunities we can only begin to 
imagine. We are exploring each of these technologies, and our 
investment will deliver the required capabilities of our CONOPS.

Executive Agent for Space
    Embedded in all of our TF CONOPS, and indeed within most military 
operations, is an extensive reliance on systems resident in space. The 
Air Force proudly fulfills the role of Department of Defense Executive 
Agent for Space with confidence and enthusiasm. Our ability to execute 
this tremendous responsibility stems from a natural outflow of our core 
competencies and distinctive capabilities. Accordingly, and in 
conjunction with the other services and agencies, we are shaping a new 
and comprehensive approach to national security space management and 
organization.
    Our capstone objective is to realize the enormous potential in the 
high ground of space, and to employ the full spectrum of space-based 
capabilities to enable joint warfighting and to protect our national 
security. The key to achieving this end is wholesale integration: 
through air, land, space, and sea; across legacy and future systems; 
among existing and evolving concepts of operations; and between 
organizations across all sectors of government. We will continue to 
deliver unity of vision, effort, and execution to fulfill our mission 
of delivering the most advanced space capabilities for America.

Drawing Effects from Space
    Our horizon is truly unlimited, extending beyond the atmospheric 
environs of airpower to the reaches of outer space. Our proud Air Force 
tradition of airpower is joined by an equally proud and continually 
developing tradition of space power.
    In the early days of the space age, only those at the strategic 
level received and exploited the benefits of space capabilities. The 
current state of affairs, however, is decidedly different. The former 
distinctions between classified and unclassified programs among 
military, civil, and commercial applications are growing increasingly 
blurred--in some cases, they are virtually seamless. In short, space 
capabilities now are woven deeply into the fabric of modern society, 
and they have altered forever the way we fight wars, defend our 
homeland, and live our lives.
    It is in this context and this understanding of the widespread and 
increasing importance of space systems that we strive to meet present 
and future national security challenges by providing dominant space 
capabilities that will:
  --Exploit Space for Joint Warfighting.--Space capabilities are 
        integral to modern warfighting forces, providing critical 
        surveillance and reconnaissance information, especially over 
        areas of high risk or denied access for airborne platforms. 
        They provide weather and other earth-observation data, global 
        communications, precision navigation and guidance to troops on 
        the ground, ships at sea, aircraft in flight, and weapons en 
        route to targets. All of these capabilities, and more, make 
        possible the tremendous success our joint warfighters achieve 
        during combat operations.
      We will enhance these existing capabilities and, where it makes 
        sense, pursue new ones such as the Transformational 
        Communications System (TCS), which will strive to dramatically 
        increase bandwidth and access for warfighters; and Space Based 
        Radar, which will complement the airborne Joint Surveillance 
        Target and Attack Radar System (JSTARS) while migrating Ground 
        Moving Target Indicators (GMTI) into space. We will also 
        develop methods and technologies to enhance our nation's 
        ability to conduct rapid and accurate global strike operations 
        anywhere in pursuit of U.S. interests.
  --Pursue Assured Access to Space.--We cannot effectively exploit 
        space for joint warfighting if we do not have responsive, 
        reliable, and assured access to space. In August 2002, the new 
        Evolved Expendable Launch Vehicle got off to a strong start 
        with the successful launch of Lockheed Martin's Atlas V 
        booster. Boeing's Delta IV program added to the Nation's quiver 
        of modern launch vehicles with liftoff in November 2002. We 
        will also pursue advanced and highly versatile reusable 
        launchers and small expendables with extremely short response 
        times to achieve long-term assured access, while taking the 
        necessary steps to maintain and improve our space launch 
        infrastructure.
  --Preserve our Freedom to Act in Space.--We must be able to act 
        freely in space, or risk losing those capabilities essential to 
        joint warfighting. We initiated efforts to increase our space 
        situation awareness, beginning with the new Space Situation 
        Awareness Integration Office at Air Force Space Command, and a 
        similar program at the Space and Missile Systems Center. Future 
        efforts are planned to develop strategy, doctrine, and programs 
        to improve the protection of our own space capabilities while 
        denying the benefits of joint space capabilities to our 
        adversaries.
    As it is with all Air Force capabilities, the most important 
resource for national space capabilities is neither technological nor 
fiscal--it is human. Our Space Professional Strategy fulfills a Space 
Commission recommendation to develop space professionals and nurture a 
cadre to lead our national security space endeavors at all levels in 
the decades ahead. These space-expert airmen will be the core stewards 
of space operations, and shoulder the responsibility for aggressively 
advancing joint warfighting capabilities into the high ground frontier.

Horizontal Integration of Manned, Unmanned, and Space Assets
    The essence of transformation is found in leveraging the nation's 
technological dominance to create maximum asymmetrical advantage. 
Airmen seek unrestricted boundaries when looking at war planning from a 
theater-wide perspective, or talking about national elements of power. 
Simply stated, it is in the way we think--we must take advantage of it.
    Our foremost objective is to develop the capability to conduct 
rapid and precise operations to achieve desired effects and shape the 
battlespace for the joint force. This requires interfacing numerous DOD 
and national assets--the seamless, horizontal integration of manned, 
unmanned, and space-based systems. An essential element is designing 
systems that use digital-level, machine-to-machine conversations to 
expedite data flow and ensure the JFC receives timely, decision-quality 
information. Such integration will dramatically shorten the find, fix, 
track, target, engage, and assess (F\2\T\2\EA) cycle. In the end, we 
know that neither JFC's guiding operations, nor special operators 
putting iron on targets, care what source provides the target data. It 
is an effect they seek, and what we will provide.
    Key to the warfighter's success is Predictive Battlespace Awareness 
(PBA). PBA requires in-depth study of an adversary well before 
hostilities begin. Ultimately we want to be able to anticipate his 
actions to the maximum extent possible. PBA-derived insights allow us 
to utilize critical ISR assets for confirmation rather than pure 
discovery once hostilities begin. We are then able to analyze 
information to assess current conditions, exploit emerging 
opportunities, anticipate future actions, and act with a degree of 
speed and certainty unmatched by our adversaries.
    Along this path, we are transitioning from collecting data through 
a myriad of independent systems (Rivet Joint, AWACS, JSTARS, space-
based assets, etc) to a Multi-sensor Command and Control Constellation 
(MC\2\C) capable of providing the JFC with real-time, enhanced 
battlespace awareness. Today, this transition is restricted by the 
necessity to rely on Low Density/High Demand (LD/HD) C\4\ISR assets. 
The limitation inherent in LD/HD platforms forces us to shift their 
exploitation capabilities between theaters to cover emerging global 
threats and events. This sub-optimizes overall battlespace awareness 
and limits our efforts at predictive analysis. In the interim, 
responsive space-based ISR assets will help mitigate our over-stressed 
LD/HD systems. Yet ultimately, we need a synergistic combination of 
military and commercial assets, advanced data processing capabilities, 
and assured reachback to achieve true battlespace awareness.
    In the future, a single wide-body platform employing tunable 
antennas and sensors--Multi-sensor Command and Control Aircraft 
(MC\2\A)--will replace many of the C\4\ISR functions of today's 
specialized, but independent assets. Air, ground, and space assets will 
comprise the MC\2\C, which will elevate Joint Forces Air Component 
Commanders' ability to command and control air assets. Additionally, 
every platform will be a sensor on the integrated network. Regardless 
of mission function (C\2\, ISR, shooters, tankers, etc), any data 
collected by a sensor will be passed to all network recipients. This 
requires networking all air, space, ground, and sea-based ISR systems, 
command and control (C\2\) nodes, and strike platforms, to achieve 
shared battlespace awareness and a synergy to maximize our ability to 
achieve the JFC's desired effects.
    Uniting joint and coalition information presents the most difficult 
challenge in providing one common operational picture for key decision 
makers. We are working closely with our sister services to eliminate 
the seams between existing systems and taking the necessary steps to 
ensure all future acquisitions are planned and funded to meet the 
interoperability requirements of future joint CONOPS.
    A critical element of successful information merging is 
communications, as bandwidth is finite and requires careful management. 
Long-range or penetrating systems must communicate beyond the horizon 
despite adversaries' attempts to exploit or interrupt these links. To 
counter disruption, all systems must be reliable, secure, and 
bandwidth-efficient. The PBA construct facilitates this objective by 
eliminating constrictive, stove-piped communications systems while 
emphasizing networked operations.
    We will realize the vision of horizontal integration in our TF 
CONOPS. GSTF, for example, will deliver the right-sized mix of assets 
with appropriate sensors capable of penetrating into enemy airspace. 
Such sensors may be low observable and/or expendable, mounted on either 
ISR platforms or imbedded into strike platforms. Sensors may consist of 
special operations forces, inserted before the commencement of 
hostilities, who communicate with attack platforms during combat via 
secure electronic writing tablets, annotating targets and threats on 
the imagery display with a stylus. As technology progresses, and where 
it makes sense, a significant portion of ISR functionality will likely 
migrate to space, affording 24/7 persistence and penetration. Likewise, 
advanced defensive counterspace capabilities will afford these systems 
protection from enemy actions.
    Combining manned, unmanned, and space-based assets with dynamic 
C\2\ and PBA transforms disparate collection and analysis activities 
into a coherent process, allowing the warfighter to make timely, 
confident, and capable combat decisions. This is what the Air Force 
brings to the joint fight. It is what air and space warriors are all 
about. We unlock the intellectual potential of airmen who think across 
the dimensions of mediums and systems capabilities, for the joint 
warfighter.

Addressing the Recapitalization Challenges
    Despite new CONOPS and visions for future capabilities, we cannot 
rely on intellectual flexibility to eradicate the challenge of old 
systems and technologies. Though creativity may temporarily reduce the 
negative impacts of aging systems on our operational options, 
ultimately there are impassable limits created by air and space system 
hardware issues.
    We have made tremendous strides in modernizing and improving 
maintenance plans for our aircraft; however, the tyranny of age has 
introduced new problems for old aircraft. Reality dictates that if we 
completely enhance the avionics and add new engines to 40-year old 
tankers and bombers, they are still 40-year old aircraft, and subject 
to fleet-threatening problems such as corrosion and structural failure.
    This is equally true for our fighter aircraft, where once cutting-
edge F-117s now average over 15-years of age, and mainstay air-
dominance F-15Cs are averaging nearly 20-years of service. With double-
digit surface-to-air missile systems, next-generation aircraft, and 
advanced cruise missile threats proliferating, merely maintaining our 
aging fighter and attack aircraft will be insufficient. In fact, the 
dramatic advances offered in many of our TF CONOPs cannot be realized 
without the addition of the unique capabilities incorporated in the F/
A-22. Simply stated, our legacy systems cannot ensure air dominance in 
future engagements--the fundamental element for joint force access and 
operations. We will thus continue executive oversight of F/A-22 
acquisition in order to ensure program success. While keeping our 
funding promises, we will procure the only system in this decade that 
puts munitions on targets, and which is unequally capable of detecting 
and intercepting aircraft and cruise missiles.
    Although ultimately solving these recapitalization challenges 
requires acquisition of new systems, we will continue to find 
innovative means to keep current systems operationally effective in the 
near term. We know that just as new problems develop with old systems, 
so too do new opportunities for employment, such as our employment of 
B-1s and B-52s in a close air support role during OEF. We will also 
pursue new options for these long-range strike assets in a standoff 
attack role for future operations.
    Unlike with the aforementioned air-breathing assets, we cannot make 
service life extensions or other modifications to our orbiting space 
systems. Satellites must be replaced regularly to account for hardware 
failures, upgrade their capabilities, and avoid significant coverage 
gaps. Additionally, we must improve outmoded ground control stations, 
enhance protective measures, continue to address new space launch 
avenues, and address bandwidth limitations in order to continue 
leveraging space capabilities for the joint warfighter. We are 
exploring alternatives for assuring access to space, and a key aspect 
of this effort will be invigorating the space industrial base.
    Finally, it is imperative that we address the growing deficiencies 
in our infrastructure. Any improvements we may secure for our air and 
space systems will be limited without a commensurate address of 
essential support systems. Deteriorated roofs, waterlines, electrical 
networks, and airfields are just some of the infrastructure elements 
warranting immediate attention. Our ability to generate air and space 
capabilities preeminently rests with the ingenuity of visionary ideas, 
yet intellectual versatility must be supported by viable systems and 
structures to realize our Service potential.

Organizational Adaptations
    Commensurate with our drive to enhance air and space capabilities 
is our identification and development of organizational structures to 
aid these advances. In 2002, we initiated numerous adaptations to more 
efficiently and effectively exploit Air Force advantages for the joint 
warfighter.

Warfighting Integration Deputate
    Comprehensive integration of the Air Force's extensive C\4\ISR 
systems is paramount for our future capabilities. This requires an 
enterprise approach of total information-cycle activities including 
people, processes, and technology. To achieve this, we created a new 
Deputy Chief of Staff for Warfighting Integration (AF/XI), which brings 
together the operational experience and the technical expertise of 
diverse elements (C\4\ISR, systems integration, modeling and 
simulation, and enterprise architecture specialties.)
    This new directorate will close the seams in the F\2\T\2\EA kill 
chain by guiding the integration of manned, unmanned, and space C\4\ISR 
systems. AF/XI's leadership, policy, and resource prioritization will 
capitalize on the technologies, concepts of operations, and 
organizational changes necessary to achieve horizontal integration and 
interoperability.
    Success has been immediate. AF/XI worked with the Deputy Chief of 
Staff for Air and Space Operations to champion increased Air Operations 
Center weapon system funding in the fiscal year 2004 POM, which 
accelerated the stabilization and standardization of the weapon system. 
Subsequently, the base-lined weapon system now has a modernization 
plan, which is both viable and affordable. AF/XI also led analysis that 
highlighted imbalances among collection and exploitation capabilities. 
As a result, we plan to accelerate ground processing and exploitation 
capabilities within the Future Years Defense Program to close the gap. 
Major contributions in management of the complex information 
environment will continue, as AF/XI makes better use of scarce 
resources, allowing the Air Force to provide the joint warfighter the 
capabilities to dominate the battlespace.

Chief Information Officer (AF/CIO)
    Partnered with AF/XI, the AF/CIO shares responsibility to spearhead 
the transformation to an information-driven, network-centric Air Force. 
These two organizations orchestrate the integration within our 
information enterprise, and establish processes and standards to 
accelerate funding and ensure priorities match our integrated 
information vision.
    The AF/CIO's specific mission is to promote the most effective and 
efficient application, acquisition, and management of information 
technology resources under an enterprise architecture. The goal is to 
provide the roadmap for innovation and to function as a blueprint for 
the overall leverage of valuable information technology. Enterprise 
architecture will use models and processes to capture the complex 
interrelationships between the Air Force's systems and platforms. A 
resultant example is basing Information Technology (IT) investment 
decisions on sound business cases, approved Air Force standards, and, 
ultimately, how a particular technology contributes to specific 
capabilities. Additionally, we are institutionalizing enterprise 
architecting as a key construct in defining mission information 
requirements and promoting interoperability.
    Currently, the wide variety of IT standards limits C\2\ processes 
and information and decision support to our warfighters. The AF/CIO-AF/
XI team is tackling this and all other integration challenges as they 
develop an enterprise architecture that spans the entire Air Force, 
while also staying in harmony with other services' efforts.

Blended Wing
    We do nothing in today's Air Force without Guard, Reserve and 
civilian personnel working alongside Active Duty airmen. A fundamental 
initiative of Air Force transformation is formalizing this integration 
under the Future Total Force (FTF). As part of the FTF, we are pursuing 
innovative organizational constructs and personnel policies to meld the 
components into a single, more homogenous force. FTF integration will 
create efficiencies, cut costs, ensure stability, retain invaluable 
human capital, and, above all, increase our combat capabilities.
    A key effort is to ``blend,'' where sensible, units from two or 
more components into a single wing with a single commander. This level 
of integration is unprecedented in any of the services, where Active 
Duty, Guard, and Reserve personnel share the same facilities and 
equipment, and together, execute the same mission. In essence, blending 
provides two resource pools within a single wing--one, a highly 
experienced, semi-permanent Reserve component workforce, offering 
stability and continuity; the other, a force of primarily Active Duty 
personnel able to rotate to other locations as needs dictate.
    The first blended wing opportunity arose with the consolidation of 
the B1-B fleet. The move left behind an experienced but underutilized 
pool of Guard personnel at Robins AFB, GA. Meanwhile, the collocated 
93rd Air Control Wing (ACW) (Active Duty E-8 Joint STARS), suffered 
from high tempo and low retention. Hence, Secretary Roche directed that 
the two units merge, and on 1 October 2002, the blended wing concept 
became a reality with the activation of the 116th ACW.
    The 116th ACW tackled many pioneering challenges: from legal 
questions surrounding the command of combined Active-Reserve component 
units, to programmatic issues with funding the program from two 
separate accounts, to integrating different personnel systems used by 
each component. Airmen from both components are working through these 
issues successfully, making the 116th an example for future FTF 
blending. Yet, some additional Title 10 and Title 32 provisions still 
need to be changed to make the FTF a reality. Meanwhile, parallel 
efforts, such as placing Reserve pilots and maintenance personnel 
directly into Active Duty flying organizations under the Fighter 
Associate Program, add to this leveraging of highly experienced 
Reservists to promote a more stable, experienced workforce.
    As organizational constructs, blending and associate programs lay 
an important foundation for a capabilities-based, expeditionary air and 
space force, which are inherently flexible and ideal to meet rotational 
AEF requirements. In a resource-constrained environment, blending 
promotes efficiencies and synergies by leveraging each component's 
comparative strengths, freeing funds for modernization while sustaining 
combat effectiveness, and effecting warfighting capabilities greater 
than the sum of its parts.

Combat Wing
    The comprehensive evaluations in our ongoing transformation include 
examining our wing structure. Given all of the lessons gleaned from 
expeditionary operations over the past decades, we asked, ``Could we 
derive advantages in revised wing organization for both force 
development and combat capability?'' The answer was ``Yes,'' and we 
enacted changes to create the Combat Wing Organization (CWO).
    The central aspect of the CWO is the new Mission Support Group. 
This will merge former support and logistics readiness groups, and 
contracting and aerial port squadrons, as applicable. Within this 
group, we will hone expeditionary skills from crisis action planning, 
personnel readiness, and working with the joint system for load 
planning and deployment, to communications, contingency bed down, and 
force protection. Currently, all of these aspects exist in skill sets 
that none of our officers have in total. But the new expeditionary 
support discipline will address this, and provide our officers the 
expertise in all aspects of commanding expeditionary operations. With 
this reorganization, each wing will now have one individual responsible 
for the full range of deployment and employment tasks--the Mission 
Support Group Commander.
    The restructuring will retain the Operations Group; however, group 
commanders will become more active in the operational level of war. 
Squadron commanders will be role models for operators in the wings, 
ready to lead the first exercise and combat missions. Similarly, we 
will establish a maintenance group responsible for base-level weapons 
system maintenance and sortie production rates. Like their operator 
counterparts, maintenance squadron and group commanders will be role 
models for all wing maintainers. Meanwhile, medical groups will retain 
their current organization, although we are working changes to home and 
deployed medical operations for future implementation.
    Flying and fixing our weapons systems, as well as mission support, 
are essential skill sets. Each requires the highest expertise, 
proficiency and leadership. The new wing organization allows commanders 
to fully develop within specific functional areas to plan and execute 
air and space power as part of expeditionary units, while also giving 
maintenance and support personnel focused career progression. This re-
organization does not fix something that is broken--it makes a great 
structure exceptional.

Acquisition and Business Transformation
    To achieve our vision of an agile, flexible, responsive, and 
capabilities-based air and space force, we must transform the processes 
that provide combatant commanders with air and space capabilities. An 
example of this in action is the Air Force's efforts to carry out the 
responsibilities of DOD Space Milestone Decision Authority (MDA). The 
Secretary of the Air Force delegated those responsibilities to the 
Under Secretary of the Air Force, under whose leadership immediate 
benefit was realized. Adapting an effective process already in use at 
the National Reconnaissance Office (NRO), the Under Secretary 
instituted a new streamlined space acquisition program review and 
milestone decision-making process. This new process was used for the 
first time in August 2002 in developing a contract for the National 
Polar-orbiting Operational Environmental Satellite System. This effort 
creates an opportunity for the Air Force to apply performance and cost 
accountability to defense industrial firms through their chief 
financial officers and board of directors by linking executive 
compensation to contract performance.
    In addition to the major process changes for DOD space, the Air 
Force's Business Transformation Task Force directs and integrates 
further process improvement and adaptation. Core business and 
operations support processes--such as acquisition, logistics, 
maintenance, training, medical and dental, among others--are crucial, 
as they ultimately determine our overall enterprise effectiveness and 
directly sustain combat capabilities. An additional category of 
processes called ``enablers'' completes the Air Force enterprise. 
Examples of ``enablers'' include management of human resources, 
finances, contracts, property plant and equipment, and information. The 
enablers are important as they facilitate our core capabilities and 
determine the overall efficiency of our enterprise.
    The Air Force will enact business transformation from an integrated 
enterprise perspective, examining every process and associated link. 
Accordingly, we will employ industry best practices and identify 
management metrics to improve process efficiency without degrading our 
enterprise effectiveness; expand our customer's self-service management 
capability and free up needed resources for the operational 
communities; and provide real-time, accurate financial data for better 
decision making. Already, acquisition reform has effected notable 
improvements, including:
  --(1) Streamlined our acquisition and contracting regulations, 
        replacing lengthy prescriptive sets of rules with brief 
        documents that emphasize speed, innovation, sensible risk 
        management, and elimination of time-consuming process steps 
        that have little value. As previously mentioned, our new 
        National Security Space acquisition process is an example of 
        progress in this area.
  --(2) Created a Program Executive Office for Services to bring new 
        efficiency to the growing area of services contracts. This key 
        area, which accounts for nearly half of our procurement budget, 
        had no prior centralized coordination and oversight.
  --(3) Developed and initiated System Metric and Reporting Tool 
        (SMART), putting real-time program status information on 
        everyone's desktop. This web-based application pulls data from 
        dozens of legacy reporting systems to give everyone from 
        program managers up to senior leadership direct visibility into 
        the ``health'' of hundreds of acquisition and modernization 
        programs. When fully deployed in fiscal year 2003, it will 
        automate the tedious and laborious process of creating Monthly 
        Acquisition Reports and possibly Defense Acquisition Executive 
        Summary reporting to OSD.
  --(4) Empowered ``High Powered Teams'' of requirements and 
        acquisition professionals to create spiral development plans to 
        deliver initial capability to warfighters more quickly, and add 
        capability increments in future spirals.
  --(5) Designed a Reformed Supply Support Program to improve the 
        spares acquisition process by integrating the support 
        contractor into the government supply system. Contractors now 
        have the same capability as government inventory control points 
        to manage parts, respond to base level requisitions, track 
        spares levels, and monitor asset movement.
  --(6) Continued, with OSD support, expansion of the Reduction in 
        Total Ownership Cost (R-TOC) program, to identify critical cost 
        drivers, fund investments to address them, and generate cost 
        savings and cost avoidance. We also created standard processes 
        and a business case analysis model to use for initiatives 
        within R-TOC. In fiscal year 2003, OSD allocated $24.9 million 
        no-offset investments to R-TOC that will return $53.2 million 
        through fiscal year 2008. A planned $37.1 million investment 
        across the FYDP will save a projected $331 million in 
        operations and maintenance through fiscal year 2009.
    These initiatives are only the beginning of a comprehensive and 
aggressive approach to reforming business practices. Our efforts today 
will have a direct effect on efficient and effective air and space 
capability acquisition, both immediately and in the future.

Ensuring Readiness
    Integrating systems and expanding business practices will not only 
have dramatic effects on air and space capabilities, but also reduce 
readiness challenges. However, we still face daunting, but 
surmountable, obstacles. We must overcome a multitude of installations 
and logistical issues to secure flexible and timely execution of 
expeditionary requirements for joint warfighting.
    Reconstituting and reconfiguring our expeditionary basing systems 
and wartime stocks is a critical element of our force projection 
planning. While we made significant strides in funding, we require 
additional investments in bare base systems, vehicles, spares, 
munitions, and pre-positioning assets. Our infrastructure investment 
strategy focuses on three simultaneous steps. First, we must dispose of 
excess facilities. Second, we must fully sustain our facilities and 
systems so they remain combat effective throughout their expected life. 
Third, we must establish a steady investment program to restore and 
modernize our facilities and systems, while advancing our ability to 
protect our people and resources from the growing threat of terrorism 
at current, planned, and future operating locations--at home or abroad.
    We are making progress. Improved vehicle fleet funding allowed us 
to replace some aging vehicles with more reliable assets, including 
alternative fuel versions to help meet federal fuel reduction mandates. 
Targeted efficiencies in spares management and new fuels mobility 
support equipment will improve supply readiness. In addition, our 
spares campaign restructured Readiness Spares Packages and repositioned 
assets to contingency sites. Moreover, to increase munitions readiness, 
we expanded our Afloat Prepositioning Fleet capabilities, and continue 
acquiring a broad mix of effects-based munitions in line with the 
requirements of all TF CONOPS.
    Finally, our ``Depot Maintenance Strategy and Master Plan'' calls 
for major transformation in financial and infrastructure capitalization 
to ensure Air Force hardware is safe and ready to operate across the 
threat spectrum. To support this plan, we increased funding in fiscal 
year 2004 for depot facilities and equipment modernization. We also 
began a significant push to require weapon systems managers to 
establish their product support and depot maintenance programs early in 
the acquisition cycle and to plan and program the necessary investment 
dollars required for capacity and capability. Additionally, we are 
partnering with private industry to adopt technologies to meet 
capability requirements. The results from these efforts will be 
enhanced, more agile warfighter support through the critical enabler of 
infrastructure.

Expanding AEF Personnel
    The attacks of 9/11 significantly increased workload and stress in 
a number of mission areas for our expeditionary forces. Manning for 
these operations is drawn from our existing AEF packages. In order to 
accommodate increased contingency requirements we are exploring options 
to augment the existing AEF construct. Recent and ongoing efforts to 
maximize the identification of deployable forces and align them with 
AEF cycle, assisted in meeting immediate critical warfighting 
requirements. However, some career fields remain seriously stressed by 
the war on terrorism. Accordingly, our efforts focus on changing 
processes that drive requirements not tuned to our AEF rhythm. We 
developed formulas to measure, and gathered quantitative data to 
evaluate, the relative stress amongst career fields to redirect 
resources to the most critical areas. We also began a critical review 
of blue-suit utilization, to ensure uniform airmen are used only where 
absolutely necessary, and maximize the use of the civilian and contract 
workforce for best service contribution and military essentiality.
    We are refocusing uniformed manpower allocation on our distinctive 
capabilities to reduce the stress on our active force. Additionally, we 
are carefully considering technologies to relieve the increased 
workload. These efforts exist within our longer-term work to 
reengineer, transform, and streamline Air Force operations and 
organizations, and have allowed us already to realign some new recruits 
into our most stressed career fields.

Summary
    As the two mediums with the most undeveloped potential, air and 
space represent the largest growth areas for national security and the 
greatest frontiers for joint warfighting. As such, air and space 
operations will play an ever-increasing role in the security of America 
and her allies. The Air Force will exploit technology, innovative 
concepts of operations, organizational change, and our ability to 
embrace creative ideas and new ways of thinking. We will bring to bear 
the full suite of air and space capabilities for tomorrow's joint force 
commander--drawing from every resource, integrating closely with all 
services, and overcoming any obstacle to succeed.

                              NEXT HORIZON

    The events of the last year have emphasized the dynamics of a new 
international security era. The decade of new states following the Cold 
War has been followed by the rise of non-state actors, many following a 
path of aggression and destruction. Yet, just as America adapted to new 
global dynamics in the past, we will again confront emerging challenges 
with confidence and faith in our ability to meet the demands of 
assuring freedom.
    The Air Force remains dedicated to drawing on its innovation, 
ingenuity, and resolve to develop far-reaching capabilities. The 
ability to deliver effects across the spectrum of national security 
requirements is the cornerstone of the vision and strategy of Air Force 
planning and programming. In conjunction, and increasingly in 
integration with ground, naval, marine, and other national agency 
systems, the Air Force will play a central role in elevating joint 
operations. We recognize the greatest potential for dominant American 
military capabilities lies in the integration of our air and space 
systems with those of other services and agencies, and our success in 
this objective will be evident in every mission to deter, dissuade, or 
decisively defeat any adversary.

    Senator Stevens. Thank you very much. General, you are 
right about our generation. Most of our members were drafted 
for that war, and this force is all volunteer, and it is a 
different generation, and we do stand in awe. I see those young 
men and women walking across that desert carrying those packs, 
which includes all that protection gear for chemical and 
biological warfare, and to see what they're doing, we have to 
marvel at them. You have done an excellent job in training them 
and they are demonstrating that training now, and I just can't 
tell you how proud we are of them.
    I am a little worried about what you said, though, Mr. 
Secretary, about the age of the equipment that our young people 
are flying. I don't know many people other than a few cracks, 
that are going to work in a 50-year old car.
    Senator Burns. Me.
    Senator Stevens. I already said cracks.
    But when we look at this, really the genius of the Air 
Force is not those who are pilots, with due respect. It's the 
mechanics. These people are doing an enormous job. I'm just 
amazed that we don't have 50 percent of our planes red-lined 
and not capable of flying. You're saying they were flying in 
the eighties and in wartime, that's simply an amazing record 
and I think somehow you ought to get a really outstanding kind 
of award for those people maintaining those airplanes and 
keeping them flying.

                            767 TANKER LEASE

    I am compelled to ask, Mr. Secretary, about the decision on 
the tankers, because as you know, those tankers now are 
averaging 44 years of age. Some of them were opposed by Harry 
Truman, they actually go back to those days, the fifties and 
late forties. To have an average of 44 you have to have a few 
out there of that age. Now what about the tanker decision in 
terms of leasing the tankers?
    Secretary Roche. Well, the Secretary of Defense has really 
gotten himself involved in this, and it's a different approach, 
as you know. The Air Force believed it had a good proposal, it 
did require a lease buildup that had a high peak and then came 
back down again. The things that he has sort of fed back to us 
is the sense that yes, there is a real need for tankers. The 
notion that planes can fly forever, I think we've dispelled. 
And by the way, we recognize that it was the Air Force that 
sent a study over a few years ago that said replacements would 
be required by 2030. That was a paper study done by analysts 
who unfortunately never lived with real objects like ships and 
airplanes, and understood corrosion and understood delaminating 
aluminum. So we're overcoming some of our own bad promotion.
    He fully agrees with that. He also recognizes that re-
engining very old airplanes doesn't solve the problem and it's 
not the engines that are the problems, it is the corrosive 
effects to the main aircraft. And he has asked his staff to 
work with us to see if there is a way that we can satisfy the 
needs to begin tanker replacement early and at the same time 
not have such a big bump in the budget, and we are working with 
his staff.
    It is now a very congenial working relationship. It is no 
longer--it never was really adversarial, it was more gee, this 
is so odd, so different, this lease notion, but now we're 
taking a look at leases, combinations of things, we're working 
very much together, and I would hope we can have something back 
to him so that he can make a final decision within the next 
couple of weeks. But, the war is taking up a lot of his time, 
unfortunately.
    Senator Stevens. Well, it is a difficult issue to address 
during a war, but very clearly, we're going to get to the point 
where we have some capability of rotating some of those older 
assets out of this tanker fleet, we're going to have to get new 
ones in there, and I am disturbed about that.

                             C-17 AIRCRAFT

    What about the C-17s? Are those the workhorse today of the 
Air Force? Last year we thought we authorized 15 new aircraft 
and there are only 11 in this budget.
    Secretary Roche. Sir, last year when we heard you 
authorized and directed us to put in money for 15 for this 
year, we were doing so, it was causing a budget difficulty that 
we discussed with the Office of the Secretary. We noticed that 
because of what you did last year, you put a lot of money up 
front, and that allowed for the fact that 15 airplanes had come 
off the production line every year very smoothly, to the 
position that if we were to buy the 15 this year, four of them 
would go into backlog. In other words, they wouldn't be built 
in 2004, they would really be built in 2005. And so we----
    Senator Stevens. Why? I don't understand that.
    Secretary Roche. Because 15 come out each year and because 
of prior funding, there are 15 about to come out. There are 
four already in backlog. If we would do 15 more, we only 
increase backlog. By ordering 11, they all get built in 2004 
and then we continue because of the fact that there is an 
existing line. But we ask that this only be considered, this 
proposal. We recognize that we did not do exactly what we were 
directed to do.
    The reason that you had the concerns last year was we were 
busting limits on advance procurement in a number of years. 
Because of the cash infusion that was made by the committee 
last year, you have set up a situation where we can in fact 
save the taxpayer a good bit of money by having this very 
smooth and still producing 15 a year, but not spending money a 
year earlier than necessary.
    Senator Stevens. How many total are you going to acquire 
under this new approach?
    Secretary Roche. It would be the same number of airplanes 
as before, sir. It would be 60 in this multiyear plus the 
others, for a total of 180.
    Senator Stevens. You're not reducing the number at all?
    Secretary Roche. No, sir.
    Senator Stevens. The final number remains the same?
    Secretary Roche. Yes, sir.
    Senator Stevens. Senator Inouye.

                    AIR FORCE ACADEMY INVESTIGATION

    Senator Inouye. Thank you very much. General Jumper, I 
would like to begin with your last item, the Academy. We have 
been told that the Air Force has rejected an outside review 
panel to look over the situation and make their own assessment. 
Some of my colleagues have been inquiring, why reject this 
proposal. Can you tell us why?
    General Jumper. Sir, first and foremost, we believe that 
this is the Air Force's problem to fix. We do have the 
Department of Defense Inspector General (DOD IG) in with us on 
this investigation and they are doing a portion of the 
investigation to look into the cases that have arisen, to help 
us with that part of it. The Secretary and I have been out 
there personally, we have had our team out there three times. 
We have gotten to the point now where the data that we're 
getting is repetitive data, and we think we have a good 
understanding of what the problems and issues are. We're being 
transparent on this, we're sharing what we have with the 
committee.
    But this I believe, sir, is the responsibility of the 
Secretary and myself to go fix this and we intend to do that. 
And we are sharing our data, but this is our responsibility. 
We're the ones that are accountable, sir, and for our own sake 
and the sake of our Air Force, we want to press on to this 
solution.
    Secretary Roche. May I comment, sir?
    Senator Inouye. Please.
    Secretary Roche. The interesting thing about the Academy, 
Senator, is it's not a university. We have 4,200 cadets, 
typically between the age of 18 to 23, and we don't have 
graduate students, married graduate students, and it is not a 
university. The only thing that is like it is West Point, the 
Naval Academy, the Coast Guard Academy, and possibly the 
Maritime Academy.
    When you have a gender distribution of 84 percent men and 
16 percent women, it is very different than at an American 
university which is now over 50 percent women and under 50 
percent men.
    It's in a military culture. We're taking young people from 
around the United States and putting them together. The thing 
that we looked at when we went at this is, if we were to have a 
safety problem or something else, we would want to learn about 
the problem and deal with it ourselves rather than sending it 
to some outsiders who may not understand the culture as well.
    The second thing we have going for us is we now have a 
cadre of women officers, spectacular officers, and the first 
graduates from 1980 are now Colonels or just about becoming 
Colonels. We have maintainers who are Major Generals, we have a 
number of women officers in place, and we felt that the experts 
on military life, the Academy life, problems of sexual assault, 
et cetera, we had the best experts in the world to deal with 
that, women who had attended our Air Force Academy, who 
understood it, who understood our Air Force, who could help us. 
And they have been wonderful in helping us.

                                RESERVES

    Senator Inouye. Thank you very much. Mr. Secretary, 
according to the latest reports, 36,200 reservists are now 
deployed throughout the world, including a high portion of 
critical specialists. The law presently limits service to 24 
months, and there is some indication that we might be facing 
shortages. Do you have any plans to request extending the 24 
months?
    Secretary Roche. At this stage, Senator, what we have done 
is when those were mobilized, we put a program in to demobilize 
as rapidly as we could, taking into account the plans of the 
individual reservists. You have to give them some certainty. If 
they go to their employer and say they're going to be gone for 
6 months, sometimes it just causes a problem if you send them 
back in 3 months. So we try to work with them, we try to make 
the transition in, smooth, and transition out, smooth.
    We had gotten that number down to under 14,000. Of that, 
9,000 were in force protection, protecting bases, a number of 
bases here, plus all the new bases we have created overseas. We 
recognize that we have until July 2003 to address that problem 
and that's why you've seen us effectively hire 8,000 Army 
guardsmen to protect our bases. I believe if you go to Bolling 
Air Force Base now, you will find it's our Army colleagues 
protecting the base, and this was something that was worked out 
between General Jumper and General Shinseki, and it's a 
wonderful thing to do. That takes some of the pressure off that 
9,000.
    It's our hope this war will be over soon enough that we can 
once again keep our word to these men and women and get them 
back to their civilian jobs as soon as we can, so at this stage 
we don't see a request for extension. We would rather be 
motivated to find ways to get them back to their normal life. 
We are concerned, that if we overwork the Guard and Reserve, 
their ability to recruit will be very, very difficult.
    We are now operating with something like 1,800 volunteers, 
which is wonderful. These are men and women who see a chunk of 
time, they can give it to us, and they have been doing so.

                        PERSONNEL TRANSFORMATION

    General Jumper. Sir, if I might add, as part of Secretary 
Rumsfeld's personnel transformation, he has asked us to go out 
and find ways to make sure that people who are wearing the 
uniform are doing jobs that require people to be in uniform. 
This is another part of Secretary Roche's efforts, and in that 
effort we have gone out and found about 12,000 people in our 
Air Force who we think their job could be done in another way. 
We won't get all of those back, but I think we will get a 
goodly portion of those back. Also, technology can help us out 
with things like guarding bases. Those are the things we're 
looking at right now to see if we can make sure that the demand 
for people in uniform is done correctly.
    Senator Inouye. Mr. Secretary, we have been advised that as 
a result of the long period of deployment, some of your 
reservists are experiencing financial problems. Is the 
Department planning to do something about this?

                  GUARD AND RESERVE FINANCIAL PROBLEMS

    Secretary Roche. Not that I'm aware, Senator. In some cases 
that I have been able to get into personally, I've known 
employers and I've been able to call employers, but I don't 
know enough. We have a program borrowing from World War II 
where you recall, sir, that in World War II, the services 
honored employers who helped their employees get to war. We now 
have gone to our reserves and guardsmen--and by the way, we're 
not allowed to keep a list of their employers for some privacy 
reason--but we've asked them if they would give us the names of 
their employers, and to each of them we have sent a thank you 
letter and a special pin with the E.
    We will shortly do the same thing for parents, for parents 
being able to walk around and letting us know that their son or 
daughter is serving.
    With respect to financial conditions, both the Guard and 
Reserve try to take into account those members who have that 
problem, and it is a way to relieve them of volunteers, or if 
there's some other way to get them back to the jobs as soon as 
they can, they do. Right now, it's a very stressing thing and I 
don't know of any particular program that the Department is 
looking at to worry about the financial conditions when these 
men and women come on active duty and leave their jobs.
    General Jumper. Senator, if I might add, as you well know, 
there are a great number of employers out there that take the 
burden themselves to make up the difference between the salary 
that the member gets when he or she comes on active duty and 
the salary they had before. These are great Americans out there 
who are helping carry this burden. Not all of them can afford 
to do that, and it is a concern, sir.

                             IRAQI AIRCRAFT

    Senator Inouye. Like most Americans, I have been following 
the events as they unfold in Iraq, and I have been very 
impressed by the efficiency and the accuracy of your personnel. 
It appears that possibly as a result of that, there are no 
Iraqi aircraft flying around. Does it mean that the Iraqis have 
no aircraft left?
    General Jumper. Sir, the Iraqis do have more than 100 very 
capable aircraft left. I mean, one could conclude by looking at 
the actions over there that they actually threw up their hands 
and gave up as the first order of business. I have been 
surprised at the lack of coordination that I have seen in their 
response both with their surface to air missiles and their 
airplanes. They do have capable airplanes.
    And as you know, Senator, as the Secretary mentioned, 
starting back in June or so, we started working away with a 
more aggressive enforcement of United Nations Security Council 
resolutions. In responding to violations that put command and 
control communications lines, surface-to-air missiles in the 
wrong areas, we were prompt about taking those out, and we 
think that possibly has had an effect on their ability to 
organize a responsive defense.
    I would hasten to add that you still don't know what you 
don't know. Although this is unexplained, they still have 
capability down there, and we have to certainly respect that, 
sir.
    Senator Inouye. May I ask one more? Mr. Secretary, you 
mentioned the GPS jammers. Are they the ones that the Russians 
provided the Iraqis?
    Secretary Roche. May I answer that off line to you, sir? I 
don't know if I can answer that in open session. But I would 
like to reemphasize that we find it wonderfully ironic that we 
use GPS bombs against GPS jammers, and the bombs worked just 
fine, Senator.
    Senator Inouye. There must be something wrong.
    Secretary Roche. Or something good about what you 
appropriated 4 years ago, sir.
    Senator Inouye. Thank you, Mr. Chairman.
    Senator Stevens. We do follow the early bird rule. Senator 
Durbin.

                           AIR FORCE ACADEMY

    Senator Durbin. Thank you very much, Mr. Chairman. I would 
like to return to this issue about the Air Force Academy for a 
moment. I've followed it and I've spoken to my colleague 
Senator Allard, who I think has really been a leader on this 
issue, and he first had one of the young women come forward. He 
has dealt with this responsibly and I think really drawn our 
attention to it as a national issue.
    It is a different issue from this side of the table than 
most, because for 20 years I have been sending young men and 
women from my congressional district in my State to the 
academies. They were anxious to be appointed, they wanted to go 
there, and I wanted to send them. And I really looked hard to 
find young women who would be part of our modern military, 
because I think that's an important element. And now we have 
this scandalous report which may result in some dramatic 
changes at the Academy.
    Mr. Secretary, I would say to you that I wish you would 
step back a moment from your earlier comment and think about 
what you told us. When Senator Inouye asked you about an 
outside review you said that these outsiders would not 
understand our culture. That is a troubling statement, because 
it is the culture of the last 10 years which has allowed this 
scandal to grow rather than to disappear, and that culture 
needs to be changed, clearly.
    When we are talking about bringing in the experts, I think 
you made a good point. We could bring in women who have served 
in the military, presently serve in the military, who could 
give excellent insight into how this culture could be changed. 
But I hope that you will concede to me that change is necessary 
in the culture and understand that the acceptance of it is just 
not acceptable.
    Secretary Roche. Senator, thank you very much for your 
question, because I clearly did not communicate. The culture at 
the Academy absolutely must change, and I could go on for a 
great length of time agreeing with you on point after point 
after point.
    I meant the culture of the United States Air Force. A young 
woman on one of our regular Air Force bases, an airman first 
class, is far better protected, far better dealt with when a 
problem emerges, the chain of command goes into action very 
quickly. That doesn't mean we don't have a problem now and 
then; it is, we are very confident when the chain of command is 
held responsible and accountable to all parties, and that we 
have crisis response teams, and we have first sergeants and 
senior enlisted. She is a lot better off than is a female today 
at the Air Force Academy.
    Our Air Force culture is very good. The Academy culture 
must change. And the reason the two of us have taken this 
personally is that we recognize that this is a culture issue. 
You can't just fire a couple of generals and think the problem 
is solved because you would have missed the issue.
    It goes back to, what struck us most in the cases we have 
over a 10-year period, there are cases there, some we 
prosecuted, some with insufficient evidence, there are three of 
the 23 rape allegations made over the last 10 years where the 
young women recanted and said it never happened. That's bad. 
But when we start having officers we know come up to us and say 
General, there is something you need to know, when I was at the 
Academy, this is what happened to me, that really hurts us, 
because it means that women have been victims in the United 
States Air Force.
    We want any assailant out of our Air Force. If there is 
someone out there attacking our young airmen, we want him out, 
and we want them out, and we want to help these young women 
help us cull these people out. The culture, you will see this 
when we release our initial set of directions, and we will 
still hold these individuals accountable, but we are going 
right at the culture. But we recognize that you don't change a 
culture with one member, it means starting from the top, which 
means it starts with us. It means we go back out there over and 
over and over.
    We both have been involved, we changed the honor system 
last year, we changed the recruiting athletics system, we 
changed the curriculum. This area we thought was handled, but 
it clearly was not, and it goes over a long period of time. In 
1993, this all occurred and we thought we had solved it, but 
those actions had secondary effects that made some of it worse, 
so we absolutely have to address it now as a cultural problem.
    It has to be addressed now, because in less than 90 days, 
Senator, including some people you have nominated, they will 
have a new class beginning, including 189 women, there will be 
a total of 714 women at the Academy in the fall. We have to 
make the first steps so that the families of these young women 
coming in June can believe that their daughters are okay and 
also the families of the cadets will believe that due process 
is going to be applied.
    Now having done the initial set of moves, we have the 
experts--for instance, the Federal task force on domestic 
violence, which looks at domestic violence against another in a 
family setting, which very much replicates it. We're going to 
change it, but we are going to make changes immediately and 
then start turning somewhere, as compared to if I need 10--
which experts, this set of experts, that set, wait for 6 
months, and meanwhile have another class coming to the Academy.
    Senator Durbin. This is a very serious issue and I'm glad 
for your response, because I think it helped to explain what 
you said earlier.
    I hope that in the course of this, both you and the 
General, in your commitment to transparency, will bring in 
those credible parties who will help to restore the integrity 
and the reputation of a great institution, the U.S. Air Force 
Academy, and I hope that you will do that.

                       MEDICAL EVACUATION MISSION

    I have one other issue that I will raise if I have a minute 
here, Mr. Chairman, I see I have a very brief period of time, 
and that was our discovery that in the budget request, there is 
a proposal to discontinue the so-called Nightingale Mission, 
the aeromedical evacuation mission, and to privatize it, to 
contract it out, and to suggest that we would use available 
space on C-130s and C-17s to move people who are injured or 
ill, where at the present time we are using C-9s dedicated to 
that purpose.
    Despite my interest in it because of Scott Air Force Base 
and obvious reasons, it does raise a serious question to me as 
to whether or not we can privatize and contract out something 
so critically important as the movement of personnel who are 
ill or very sick or injured or in some way have been victimized 
by combat. And I wonder if we could have your response to that, 
and if we could expand the conversation to talk about some 
options that might be considered.
    Secretary Roche. Sir, let me let General Jumper start, and 
this is frankly the question we hoped you would ask us.
    General Jumper. Sir, I know of no effort out there to 
privatize the medical evacuation. I think the effort, first of 
all, starts with the C-9s and the age of the C-9s and the 
significant costs to either bring them up to current Federal 
Aviation Administration (FAA) standards--they don't meet any of 
those standards, or to replace them.
    When we have out there active in the circuit every day our 
whole fleet of strategic airlift capability, our C-17s, our C-
5s and our C-130s, that are moving around at present more than 
100 countries every day, that provide the opportune lift to get 
patients from one place to another. That's the thing we hope to 
be able to take advantage of. As a matter of fact, we did not 
use the C-9 in any of the evacuations during Operation Allied 
Force in Kosovo, nor in Afghanistan, because of the limitations 
of that kind of an airplane.
    So, we have been successful in taking advantage of our air 
fleet. I will make sure that what I said to you about 
contracting out is correct, because that's the first I've heard 
of such a thing, but I have been surprised before.
    Senator Durbin. If I could mention one other thing, Mr. 
Secretary. I'll end here because my time is up. And that is, 
while I had an opportunity to go with the congressional 
delegation to Afghanistan and flew in a C-130, great crew, 
terrific performance, pretty old plane, but to put litters in 
the back of that plane for people who are sick, I don't think 
is an adequate response and I don't think it mirrors the 
quality of care we would ask from the Air Force and many 
others.
    Secretary Roche. If I may, Senator, we may every now and 
then inside the United States use an air ambulance service for 
a one-time situation, so that may be the contract, but 
generally we are not. The C-130Js are much newer. The preferred 
plane is the C-17, which we can in fact, and we have these 
modular systems for the medical pallets. We've both talked to 
the Surgeon General's people who we're dealing on the aircraft, 
and with the Air Mobility Command (AMC) commander and United 
States Transportation Command (USTRANSCOM) at Scott Air Force 
Base. C-9s are old, these other planes are far more viable in 
getting around, and it is the judgment of the Air Mobility 
Command that we can do this with the other aircraft.
    The one area that we are working on together is in the 
Pacific, the bases are so far apart for our own active duty and 
dependents, getting them to specialized hospitals, let's say 
Kadena or someplace else, that may require us having to convene 
with some other aircraft.
    Senator Durbin. Thank you, Mr. Chairman.
    Senator Stevens. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. 
General, it's good to see you, and Mr. Secretary, it's great to 
see you again.
    Obviously this is a day when we have talked about parochial 
issues and important issues in our home State, and we wonder 
whether it's even the right forum because our troops are at war 
overseas, it seems almost insignificant that we talk about 
local issues such as Holloman or Cannon or Kirtland.
    I want to join in complimenting both of you as the leaders 
of our Air Force. The performance of our troops in Iraq is so 
spectacular, it is difficult to comprehend. I never thought 
we'd see our forces have such an advantage. I've been here 30 
years and I get to follow development and evolution of our 
Military Forces, but I frankly never believed that we could 
move so exponentially in 10 years with reference to quality and 
technology. It's obvious that you're doing it right and we are 
proud to be part of it, at least in paying attention and doing 
what you ask us to do.

                               PROMOTIONS

    And Mr. Secretary, I'm extremely pleased that we have 
somebody as competent as you there. I have only one observation 
about the makeup of the hierarchy of the Air Force. I'm a real 
sucker for big science, I love big science, and we have a lot 
of it in New Mexico. We have the directed energy activities at 
Kirkland Air Force Base and it's the headquarters for laser 
research, and I went out there recently for a visit, and you 
know what I would like to see? I would like to see a couple or 
more two-star or three-star generals that are not just pilots 
but are Ph.D.s in chemistry, physics and engineering.
    Secretary Roche. Oh, I agree with you.
    Senator Domenici. I believe you ought to do that.
    Secretary Roche. As a Ph.D. myself, I think it's a great 
idea.
    Senator Domenici. I think you ought to just promote the 
brightest Air Force people and send them to Massachusetts 
Institute of Technology (MIT), give them whatever they need to 
get a Ph.D., and then let them come. What confidence we'd have 
if they were walking around the laser facility instead of a 
colonel. He's great, but he has to relate to an engineering 
Ph.D. from a school, and the few times I have seen a one-star 
general, I've thought how magnificent that is. I urge that you 
start a program to encourage them, give them extra incentives, 
get 8 or 10 of them graduated from California Institute of 
Technology, get the best and get them out to our Air Force lab, 
that's what we ought to do.

                   AIR FORCE INSTITUTE OF TECHNOLOGY

    Secretary Roche. Thank you for your support, Senator. We 
have reinvigorated our Air Force Institute of Technology 
(AFIT). We have ended the notion that you had to go get a paper 
master's program in order to be promoted. We have a program now 
that will send every one of our officers either to a graduate 
school or to a similar experience. We are trying to take our 
scientists and engineers, with your help, we're giving them 
bonuses. We're trying to make their careers more exciting.
    We have had a whole rerecruiting campaign of these young 
people, because when you go to one of our labs, the Air Force 
Research Laboratory (AFRL), or go to the laser facility at 
Kirtland, as we've both done and did together, you see some of 
these young officers who have all of the brights in the world, 
they love what they're doing, they love the fact that their 
work is going to be meaningful to somebody in combat, and 
somehow we lose them, and we can't lose them.
    And I'm proud to say that even though my partner is a 
fighter pilot, he was the first to say well, for heaven's sake, 
why don't we get them their doctorates and keep them.
    Senator Domenici. Mr. Secretary, you wouldn't lose those 
scientists, those military guys if they had two stars on them 
and they were scientists. You're losing them because they are 
only colonels and they don't want to stay there very long, and 
they're masters, they're not Ph.D.s. If you get them up there, 
they will stay there, and if you have them in that hierarchy, 
they will be glad to stay.
    Secretary Roche. We need more.
    Senator Domenici. I want to ask about the Predator.
    Senator Stevens. Would the Senator yield for a second?
    Senator Domenici. Yes.
    Senator Stevens. Why don't we pay them the equivalent of 
being generals instead of paying them as colonels? Why don't 
you jump their rates of pay as opposed to their grade in 
service?
    Secretary Roche. It's not a bad idea. We're talking about 
bonuses in the system for the younger ones. We take science and 
engineering seriously. Can we take that to study, sir?
    There is also a point, though, in making them leaders and 
showing the young officers that there are role models ahead. We 
have a couple. We could do more because we are so highly 
dependent on technology for our service.
    Senator Domenici. If you did that, you would have the 
pilots wondering why they are being discriminated against, so 
you don't want to do that. In any event, it seems to me that 
this is an idea whose time has come.

                                PREDATOR

    In any event, let me talk about the Predator. First of all, 
when do you expect the selection process to be completed, and 
can you give us an update on the environmental assessment 
that's being performed and for bases recommended for the 
Predator squadrons, either of you?
    General Jumper. Sir, there is an ongoing environmental 
assessment right now for where we might go with the Predator. 
Our plan right now as we're continuing to build Predator at a 
rate of about two per month, to maintain Indian Springs as our 
center of excellence for the Predator Unmanned Aerial Vehicle 
(UAV). When we start building the numbers up, we will make 
decisions for the future about where and how to expand out the 
criteria.
    As you well know, it has to do with being adjacent to 
uncontrolled airspace, the weather has to be decent, the winds 
have to be within a certain limit, et cetera, et cetera. So 
those things are ongoing, sir, but we don't have a timetable.
    Secretary Roche. They're also basing more of them overseas 
than they are at home right now, sir.
    Senator Domenici. Yes, I understand, but sooner or later we 
will have them based at home. And if we need weather plus all 
the rest, it looks like Holloman has an exciting future in 
terms of that.

                         MELROSE BOMBING RANGE

    Let's talk about the Melrose Bombing Range over on the east 
side of New Mexico and its supersonic testing capacity. 
Supersonic land facilities are very, very important. They're 
doing all that testing now over water. What's the status of the 
study with reference to Melrose and the possibility for it 
having supersonic capacity?
    Secretary Roche. Sir, I have just come upon this and I'm 
not up to speed on it. May I get back to you on that?
    Senator Domenici. Absolutely.
    [The information follows:]

                         Melrose Bombing Range

    Sir, my staff has worked this issue with Air Combat Command 
and has completed a draft of a study to determine the 
requirements to extend supersonic capability at Melrose Range. 
The study is now in the process of review to ensure accuracy; 
we will provide a copy within the next 30 days.

    Secretary Roche. And by the way, the issue you raised, 
however, is a critical one. Oftentimes we think we will have a 
range but then because of restrictions we can't go supersonic. 
As we move to an era of super cruise, it becomes terribly 
important to us to be able to do it over places other than 
water.
    Senator Domenici. Well, Melrose is over there by Cannon, 
but it has served the purpose of Holloman, Cannon, and some 
from Texas. It's a very big range. We acquired it so as to 
create diversity about 15 years ago, and I think it would be 
looked at for supersonic land testing, which people are more 
than willing to take a look and listen, but we have to do it 
right so we don't surprise them if in fact it's chosen.

                                 CV-22

    Now what about the CV-22, what's the current status of the 
testing and what is the latest schedule for training squadrons 
at Kirtland, if either of you know?
    Secretary Roche. The CV-22, sir, is in a position where 
it's having to prove itself, and the Navy and Marine Corps in 
fact have the lead. We have our own special op reader Air Force 
personnel associated with it. It's a testing program now that 
has been backed into test, it is encouraging them, but it still 
has a way to go. We believe that if it tests out well, we would 
like to have it in our Air Force Special Operating Command 
(AFSOC). Whether or not we would use it for combat search and 
rescue is still to be determined, because it has some issues 
about how it flies close to the ground and may not make it 
worthwhile. We put on hold what we would do to get them until 
we find whether or not this program is something that we in 
fact will buy, and is one where we and the Marine Corps and the 
Navy would be making a decision and making a recommendation to 
the Secretary on it after the test program is over. But as you 
know, it has had a very rough test program.
    Senator Domenici. General, did you have anything to add to 
that?
    General Jumper. No, sir, I can't add to that.
    Senator Domenici. Thank both of you very much. Thank you, 
Mr. Chairman.
    Senator Stevens. Thank you. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                        PREDATOR HELLFIRE SYSTEM

    General Jumper, could you talk a little bit, maybe not 
everything, about the significance of the joint coordination 
that took place between the Air Force and the Army to engineer 
and integrate the Predator Hellfire system?
    General Jumper. Yes, sir. We----
    Senator Shelby. I think that's a great accomplishment.
    General Jumper. It's a great story. The Predator story is a 
long and tortured one. It came to us in 1996 as a technology 
demonstration, and we took it over years and developed it into 
what it is, to include the first step of putting a laser 
designator on it so it actually designates targets on the 
ground, and then shortly thereafter by putting the Hellfire 
missile on it.
    Of course we had to go to the Army to work the integration 
of the Hellfire missile and we had superb cooperation.
    Senator Shelby. They worked that out at Redstone, didn't 
they?
    General Jumper. Absolutely, out at Redstone. And with the 
scientists at Redstone actually to do the warhead enhancements 
that we have done actually just over the last year or so. And 
the scientists actually at Redstone were the ones that helped 
us with that development. We are continuing to work with them 
for even future versions of the Hellfire that will overcome 
some of the limitations of shooting it from higher altitude, 
and that work continues, sir.
    Senator Shelby. What you're basically doing is utilizing an 
organic laboratory.
    General Jumper. Absolutely.
    Senator Shelby. Mr. Secretary?
    Secretary Roche. I was going to say, we were both just 
tickled pink. Our boss has told us, sometimes I see Hellfires 
going into buildings and people coming out, and you know, Don 
Rumsfeld says, why are they coming out? And we turned to 
Huntsville and asked for some help, and the speed with which 
they built the sleeve was just incredible.

                             AIR UNIVERSITY

    Senator Shelby. Thank you. I want to switch over to the Air 
University, General, or to both of you. Both of you know that 
the Air University at Maxwell has seen a dramatic increase in 
their training responsibilities, particularly for Reserve 
Officer Training Corps (ROTC) scholarship recipients. I brought 
this issue up with you before last year and I want to get your 
thoughts again this year on how Maxwell is doing in meeting 
their training challenges and do they have the funds to 
continue this? I think it's very important to the Air Force.
    General Jumper. Sir, let me just say, and you know this 
very well, over the last few years at the Air University, we 
have added the doctrine center, we've added the air and space 
basic course, and we've increased the student flow through 
there, and in every school that's housed there, in addition to 
our law school, our chaplains, et cetera, et cetera, they all 
go through Maxwell Air Force Base and all of its magnificent 
history going back to the tactical school in the thirties.
    We believe that everything there is adequately funded. As a 
matter of fact, as we continue to find new ways to phase 
students into the Air University that are in line with our 
rotation cycles overseas, we have made accommodations for our 
entire Expeditionary Aerospace Force concept so that throughout 
the year we can phase students in there in modules, if you 
will. That work is ongoing there, and that will increase the 
student flow. We have looked at a whole new way to do the 
correspondence courses that we have. Again, technology and 
other things invested into the Air University. These things are 
ongoing, sir, and it's really tremendous out there.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    Senator Stevens. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you. We appreciate 
very much the leadership and outstanding service that our 
witnesses are providing to our country, particularly the 
leadership of the Air Force in this challenging time.

                             C-17 AIRCRAFT

    When General Myers was here the other day, the Chairman of 
the Joint Chiefs of Staff, he talked about and commented on the 
unanticipated wear and tear on the C-17s and the aging of the 
C-5 fleet as a result of the high operating tempo during this 
war against terror. Do you believe the planned procurement of 
C-17s and upgrades to the C-5s are sufficient to meet our 
future airlift needs?
    Secretary Roche. Senator, I will start and then ask General 
Jumper to comment. The C-17 is one of those airplanes that you 
dream for. We accepted it one day and in 48 hours it's in the 
air and working. It has just been a workhorse, it has been 
terrific, and I have had the pleasure of flying on them. It has 
just proven what people said could be done was done, even 
though the program, as the chairman knows well, went from 220, 
cut to 110, cut to 40, almost zero, almost zero, almost zero, 
limped to 40, 80, boom, now 120 going to 180.

                              C-5 AIRCRAFT

    We are going to take the C-5, the C-5Bs and modernize 
those. The question that we face is to what degree can we take 
the C-5As and fully extend their life usefully, as compared to 
just creating another maintenance stream for a long period of 
time that becomes too costly. We will take and diagnose two of 
the Bs, then take a look at an A or two, we are creating an 
air-worthiness board which parallels what the Navy does in its 
board of inspection survey, because we now have so many old 
airplanes we need to put together teams of real experts on 
materials, structures, to be able to advise us, to say this 
aircraft by hull number has to be retired.
    If we cannot get a good answer by modernizing some of the 
C-5As, recognizing we do all 50 of the Bs, then we will have to 
determine how many more C-17s are required to make up the 
shortfall in the lift requirements that we have. That is our 
current plan. Meanwhile, the C-17s are on multiyear, going 
along fine. We will review those other studies, and we should 
be able to find out and understand what it requires to 
modernize the As and how many of them we could modernize, and 
then do all the Bs, and then make a decision between doing the 
As or more C-17s.
    General Jumper. Sir, if I might add, the objective out 
there from the mobility requirement study is 54.5 ton miles per 
day. It will be worth our while, especially following this 
conflict, to go back and take a look and see if that number 
remains adequate, because that number was established with a 
completely different set of assumptions. But in order to get to 
the 54.5 in the course that the Secretary described is the 
course that we are on right now.
    Secretary Roche. We wish we just had a problem of building, 
Senator, it would be easier. We have aging across the board and 
trying to have budget fit these different categories after, 
frankly, 10, or 8 to 12 years of not investing. We don't have a 
capital budget and we don't have a process to reinvest a 
depreciation rate. So we face you with these big bumps of 
modernization, which is a shame.

                              GLOBAL HAWK

    Senator Cochran. Another point that I recall the chairman 
making when he was here before the committee was the importance 
of the capability of these unmanned aircraft to surveil and 
identify activity through intelligence gathering. The 
usefulness obviously is very important in a war like we are 
conducting in Iraq right now. My impression is that Global Hawk 
has proven to be very valuable to our operations.
    My question is, are we moving fast enough to procure 
systems such as Global Hawk and other necessary unmanned aerial 
vehicle variants that we see developing? I know Northrop 
Grumman is developing a Fire Scout as another option. What is 
your impression of these new systems and are we integrating 
them into the Air Force quickly enough?
    Secretary Roche. First of all, Senator, I think the Air 
Force integration is one where people keep wondering why 
fighter pilots are doing this, and we're past that. We are 
absolutely past that. When we have the chief fighter pilot of 
the Air Force as one of the greatest fans of unmanned vehicles, 
it's amazing that his leadership has made everyone recognize 
that there is a complementary nature of manned and unmanned 
aircraft.
    General Franks really did us an enormous favor when we both 
asked him if we could put some drones over Afghanistan that 
were not fully developed, not ready for prime time, in order to 
learn how these operated in war. We probably have saved the 
American taxpayer an enormous amount of money by having the 
chance to build something, play with it, use it, understand it, 
change it, go back.
    We're getting the same permission from General Franks here 
in the Iraqi war. That's allowed us to do things very quickly 
like the armed Predator, like the sleeve on the Hellfire, like 
looking at Global Hawk for multiple types of missions, 
including taking some of the bandwidth off of the satellites 
and having Global Hawks behave as lower altitude satellites. 
It's led us to take the multi-sensor command and control 
aircraft and to think about part of the back end controlling 
some drones.
    And then taking a leaf from history, in the late thirties 
at Maxwell Air Force Base and the Wright Patterson Air Force 
Base, the Army Air Corps procured small numbers of a number of 
different types of aircraft and allowed the young pilots to say 
here's how these are best used, here's how things go. We've 
been trying to replicate that. And in open session I can't tell 
you how many families, I can tell you it's more than you can 
count on one hand, the families of unattended vehicles plus 
remotely piloted aircraft, we have found in certain 
circumstances having a pilot who has to make an attack decision 
is very important, and also just how the pilot's instincts take 
over.
    You know, a pilot can see a black cloud and won't go into 
it. A drone will go exactly where you told it to go and then 
you may find you have a problem because you're in a black 
cloud. Or when an Iraqi Flogger is coming in at our Predators, 
our pilots use certain techniques to do that--alter what the 
Flogger could see. We, by playing and understanding these and 
getting our young people involved, it has made a huge 
difference.

                     UNMANNED AERIAL VEHICLE PILOTS

    Now we had a cultural problem when a number of our young 
pilots thought that somehow they had failed us and that's why 
they were being assigned to unmanned vehicles. We have both 
visited every operating unit, we've both spent time at Indian 
Springs. We've now found every one of their problems like gate 
time, they didn't get gate time, or they weren't eligible for 
medals because quite often they were not in the region, 
although some of them have killed more people than a heck of a 
lot of our other pilots. They can get medals now. They worried 
about where they would go on their next set of orders. We make 
it clear to them that they are pioneers and we just milk their 
brains, as well as the maintainers on these aircraft.

                               PREDATOR B

    And from that we have developed the notion of a basic 
Predator closer to a razor blade as cheap as possible, and it's 
a killer scout. Predator B is going to be a hunter killer, fly 
higher, carry more. Global Hawk is equivalent to a low altitude 
satellite, it can do all kinds of things. And so we believe 
that our procurement program is much greater than it was a few 
years ago. And then there are others that I can't discuss in 
open. This will form a set of families that will let us 
replicate what happened prior to World War II where the United 
States was able to pick the best precisely because it 
experimented as well. General?
    General Jumper. Sir, if I could just add a few points. One 
is that we have to make sure that we understand the true value 
of these remotely piloted and unattended vehicles to the fight, 
and the main virtue that we see is this notion of persistence. 
We had a Predator here just a few days ago that flew a 33-hour 
mission. It's this persistence that enables you to stare and to 
predict, and to do it day and night that makes this small 
airplane so valuable to us. We've got to make sure that we 
understand the value of these things and that when we project 
out to where our capabilities need to go in the future that 
we're not just merely taking people out of airplanes.
    One of the issues that we discuss often is, would we be 
buying this vehicle if it were manned, because the vehicle does 
something unique that we can't do with anything else. That's 
one of the litmus tests that we have to make sure that we pass. 
And if we can't pass that test, then we have to make sure that 
we're not taking the judgment out of the airplane that is 
absolutely required to be there.
    That's why we make this distinction about remotely piloted 
aircraft. We're going to have a rated person at the controls of 
the Predator as long as there is a requirement to bear the 
burden of putting weapons on targets and being responsible for 
the lives of people on the ground, just the way we burden our 
people who fly in the airplanes. It's those kinds of things 
that we are thinking our way through in a deliberate way before 
we make big commitments out there for the future.
    But we understand the urgency, sir, and we are pressing on 
with it.
    Secretary Roche. In the notion of range of persistence, the 
third one that we have come upon is this notion of what we call 
digital acuity. It says that a drone in its 23rd hour of 
operation is just as sharp as it was in the second hour of 
operation, where a human being tires, a human being starts to 
lose interest, where a digital system does not. So we're 
looking for comparative advantage in each case and we have 
proven that drones or remotely piloted aircraft and piloted 
aircraft can operate in the same airspace very comfortably. A 
Navy F-18 in Afghanistan asked the Predator a question, and the 
Predator answered the question.
    Senator Cochran. Thank you.
    Senator Stevens. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    I have had the opportunity to tour the Global Hawk, the 
Predator and F-22 programs, and I am very impressed.

                         IRAQ WAR NEWS COVERAGE

    I want to ask you about the Air Guard, their jet fighters, 
B-52s, but before I do that, let me ask a question that's been 
bothering me. With this 24-7 news coverage of the war and 500 
journalists embedded in our Armed Forces who are fighting that 
war and with all of the networks actually having begun 
advertising before the war began about their cast of characters 
for analysts and interpreters, in the mornings I have watched 
retired generals and admirals, many people who have served this 
country with great distinction standing on full-scale maps on 
the floors and walls with pointers, and they're describing 
where our troops are moving, where they're headed, what they 
think might or might not happen. Some have even been mildly 
critical, I believe.
    But I watch all that and I think, this is a wealth of 
information to me as an American citizen. I also have access to 
top secret briefings, as do my colleagues. What I see in the 
morning on television or at night by many of these analysts, 
former colleagues of yours, makes me wonder. Is there any cause 
for anxiety or concern inside the Pentagon about what's being 
disclosed with all these pointers? It's a wealth of information 
to me and to the American people. Is it also a wealth of 
information to the Iraqis, who I assume watch Cable News 
Network (CNN) and other news services? Do you have any anxiety 
or concerns about that, General?
    General Jumper. From time to time some of the things I have 
seen have actually caused me some anxiety, because it has 
appeared to me from time to time that some of these people, not 
necessarily former military people who have access to 
classified information, have actually talked about things that 
shouldn't be talked about.
    By and large what I see is a description of ongoing 
operations that are usually lagging in events and would be of 
little help. I can tell you that most, not all, most of the 
people who formerly wore a uniform are acutely aware of this 
and they take great care to make sure that what they are going 
to say does not divulge anything. Also, it's fascinating to see 
how captivating this notion of a camera going along in the back 
of a Bradley for hours and hours is to the American people out 
there, and of course that gets the American people right down 
to the tactical level, which I think is good for them, because 
they get to see our soldiers, sailors, airmen and marines at 
work.

                              B-52 BOMBERS

    Senator Dorgan. Thank you, General, for your response.
    Let me ask about the B-52s. You talked about the KC-135s 
and the aging and corrosion. That same circumstance is not 
present with the B-52s, is it?
    Secretary Roche. No, sir, and there are a couple of 
reasons. One is, the design of the plane was such that it was 
overdesigned and in particular, if I can demonstrate--my 
colleague does it better than I do. B-52s have wings like this, 
and 135s have wings like that. In one case water flows into the 
fuselage and in the other case it flows out, so we have not had 
the problem of assembly metal and the cabin corrosion with B-
52s. Also, over the course of time because they were nuclear 
bombers, there has been major structural rework done on those 
planes. And then lastly and most importantly, we don't fly the 
plane anywhere near the way it was intended to be flown. We 
have found that it serves a particularly wonderful mission if 
it goes up high, launches, stand off in defended areas, or over 
the top in areas where there is no air defense, so how we use 
the plane makes a big difference. And we kept 76 of the best 
from many hundreds.
    Senator Dorgan. And in fact when they talk about the age of 
the plane, in large respect they are not that old; much and 
most of that plane has been replaced and updated.
    Secretary Roche. Yes.
    Senator Dorgan. But I just wanted to make that point, that 
we don't have the same circumstance with the B-52 even though 
it's a very old system.
    General Jumper. Right.

                           AIR NATIONAL GUARD

    Senator Dorgan. Let me ask about the Air Guard and the F-
22s that will come on line at some point, and I happen to share 
your view. I hope we can keep this schedule moving. I think 
it's an impressive airplane and I hope very much that we can 
continue to fund it and move it along. As we do that, planes 
have become available for the Reserve components and the Guard.
    As you know, one of the best Guard units are the Happy 
Hooligans from Fargo. In fact, they were the first up to 
protect the Capitol the day of the attack on 9/11, the first 
fighters scrambled from Langley. They have won the William Tell 
award twice, and I think the only Air Guard unit perhaps to 
ever win it, and certainly to win it twice against all the best 
pilots in the world. But the best pilots are now flying the 
oldest airplanes, which gives them some amount of angst and 
myself as well. And we're trying to evaluate what's the future 
here, when will they get their F-15s or modern F-16s? You and I 
have talked about that a great deal, General, and Mr. 
Secretary, we have as well. Any news on that front?
    Secretary Roche. Much depends on whether we can keep the F/
A-22 schedule on. We are very aware of the Happy Hooligans' 
record and we also are aware that they have a strong interest 
in F-15s if not the F-16Cs, and that's something we have in our 
heads. We would like to flow these down when appropriate to the 
Hooligans and other members of the Guard to get some aircraft.
    The second thing we would wish to do, as you know, we have 
a group that's called blended wing at Warner Robins on the 
Joint Surveillance and Target Attack Radar System (JOINT STARS) 
aircraft, which was a radical experiment that General Jumper 
and I wanted to take, which was to have active and guardsmen in 
the identical wing with full-time missions. Right now the head 
of that wing is a guardsman. And other than some constitutional 
issues of someone empowered by a State giving orders to a 
Federal force, it has worked wonderfully, and this war is going 
to prove that we can do this. The only thing we would like to 
do different in the long run is to start to think of doing that 
more in the Guard, among other things to get F/A-22s into the 
Guard where we can blend wings.
    Senator Dorgan. I will come back and talk to both of you at 
other times on this issue.

                           ELECTRONIC WARFARE

    Let me just ask two additional very brief questions. One, 
B-52s and electronic warfare mission, I believe, General, you 
testified to that over in the House. And the second, I want to 
just ask, are you reasonably positive, do you feel generally 
positive about the decision the Secretary might make with 
respect to leasing 767s?
    So if you could address those two things, the B-52 
electronic warfare issue, and the 767.
    Secretary Roche. How do you want to handle this?
    General Jumper. I will take the B-52.
    Sir, as you well know, we are pursuing a program to take a 
very hard look at complementing the United States Navy and its 
desire to replace the EA-6B in a jamming world with something 
that can persist a little bit longer and can also help both the 
Navy and the Air Force and the Marine Corps with stand-off 
jamming that's persistent. And the platform we would like to 
take a look at, of course, is the B-52. Take advantage of that 
very large fuel tank that they have out on the wing tip----
    Senator Dorgan. You said that was the size of a 
condominium?
    General Jumper. It's the size of a small condominium. When 
you stand off it doesn't look that big, but when you walk it up 
next to it, you can figure out you can live in it. But we could 
take the work on the electronic jamming pods that has been done 
for the Navy in the EF-18 and we could take that same 
technology and leverage it for this pod, I think without 
disturbing the rest of the mission of the aircraft at all. So 
it can deploy long ranges, it can persist for long periods of 
time and complement the shorter range F-18.

                               767 LEASE

    Secretary Roche. With respect to the 767 lease, I would not 
want to speak for Don Rumsfeld.
    Senator Dorgan. I'm just asking how you feel.
    Secretary Roche. I feel good about some variation of the 
lease, because the Secretary clearly understands and accepts 
and is probably, given his history as Secretary of Defense 
earlier, recognizes that all these tankers were flying then. 
And in fact, some of them were flying when he was still on 
active duty, or just about. And that we do need new tankers and 
this has to be done sensibly. The fact that we now have some 
collegiality between his staff and the Air Force trying to 
address this problem in a sensible manner, I must give special 
praise to Secretary Aldridge. He has tried mightily to make the 
points that need to be made and also to try to take into 
account concerns of controllers and others, as well as Zone B, 
and we are trying to come up with an alternative that's a 
variation that in fact the Secretary could approve us going 
forward, but we're working together for the first time.
    Senator Dorgan. Thank you for your responses.
    Senator Stevens. Thank you very much, gentlemen.
    Two things. I have asked the staff to take a look at the 
current GI bill, the Montgomery bill, to make certain that it's 
going to be available to those who have been involved in this 
effort. There is some question as to whether they had to have 
made the decision at the time they entered the service as to 
whether they wished to be eligible for that, and I think many 
of them after this experience might want to have a second look 
at that, and I would urge you to talk to the Department about 
that.

                               COMBAT PAY

    Secondly, I asked the staff to look at the problem of what 
we called combat pay, we now call hostile fire and imminent 
danger pay. I'm informed that was $110 a month before the 
Persian Gulf War, during the Persian Gulf War it was raised 
about 27 percent to $150 a month. And we have had an increase 
in pay since for just general military pay since the Persian 
Gulf War of about 30 percent. Clearly, we ought to have a 
combat pay figure that is relevant to the current pay scales 
and to current problems, and I would urge you to also take this 
up with the Department.
    I don't think we ought to jump the gun. I think that was 
raised actually by executive action in the Persian Gulf War, it 
was made permanent in the 1993 Act, but the current rate of 
$150 was made permanent then. We seek your guidance. I should 
think that the Executive Order would be sufficient right now, 
but the permanent pay scale ought to be raised sometime in the 
future.
    Again, I thank you very much for your presence. Senator 
Inouye and I have been here now for over 30 years on this 
committee and watched the development of many of the systems 
that we're seeing used so effectively in this war, and we 
commend you as we did in the beginning for your efforts and 
your role. And I promise not to show your picture around, the 
one I talked to you about, General.

                     ADDITIONAL COMMITTEE QUESTIONS

    General Jumper. Thank you, Senator.
    Senator Stevens. He went to high school in Anchorage.
    Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to James G. Roche
          Questions Submitted by Senator Kay Bailey Hutchison

         BASIC MILITARY TRAINING AND TECHNICAL TRAINING SCHOOL

    Question. Your submitted joint written statement addresses the 
importance of recruiting and retention to maintain a quality force. You 
said, ``Despite the challenge of mustering such a diverse and skilled 
collection of Americans, we exceeded our fiscal year 2002 enlisted 
recruiting goals and expect to surpass fiscal year 2003 objectives. We 
will adapt our goals to meet new force objectives; however the capacity 
limitations of Basic Military Training and Technical Training School 
quotas will continue to challenge Total Force recruiting efforts.'' 
Since these missions are accomplished as a whole or in part at Lackland 
and Sheppard Air Force Bases, can you elaborate on what you mean by 
capacity limitations?
    Answer. The Air Force is in the process of reshaping the force in 
response to the current security environment. Basic Military Training 
(BMT) and most Air Force Speciality Code (AFSC) technical schools met 
past capacity requirements but are now feeling stressed because of 
meeting new or expanded mission demands. BMT capacity is currently 
tight because of increased Guard/Reserve numbers but capacity is 
sufficient to meet demand. Some of our most in-demand career fields are 
trained at technical training wings in Texas (e.g., CE Readiness at 
Sheppard; Security Forces at Lackland; Intelligence/Linguist at 
Goodfellow). As we transform, certain skills will be temporarily 
stressed; however, adequate resources will be moved to accommodate 
increases in throughput. As we work through this force reshaping, 
training requirements will be adjusted. Active and Reserve Component 
requirements will be re-evaluated and enough seats made available to 
meet new steady state current and future requirements.
    In the interim, timing of course dates may not be as convenient; 
however, sufficient seats will be available to accomplish Total Force 
mission requirements. Our focus is on making force-shaping adjustments 
while maintaining the most effective and efficient Total Force training 
pipeline possible. We expect to sustain adequate capacity given the 
size of the force we have today.

              RANGE AND READINESS PRESERVATION INITIATIVE

    Question. Please provide some background information on the Range 
and Readiness Preservation Initiative that you mentioned in your 
written statement, intended to examine training range activity and 
current legislation's impact on these activities.
    Answer. The Readiness and Range Preservation Initiative (RRPI) 
provides clarification to specific statutes; it does not provide 
``sweeping'' exemptions from environmental laws. Also, the RRPI is not 
a complete solution for every encroachment challenge. Changes in 
regulations and administrative practices are also being explored.
    Recently, courts have been interpreting environmental statutes and 
existing laws in new ways that are impacting military operations on 
ranges and in airspace. RRPI is one process used by the Air Force to 
address encroachment. The current RRPI seeks focused legislative 
changes to protect our readiness as we manage our resources. It does 
this by; (1) codifying Department of the Interior policy to use DOD's 
integrated natural resources management plans. These replace the need 
for critical habitat designations under the Endangered Species Act on 
DOD lands, (2) amending the Marine Mammal Protection Act to clarify 
that military readiness activities are not considered ``harassment'' of 
marine mammals unless they present a significant potential to injure 
the mammals or to disrupt natural behavior patterns, (3) codifying the 
Environmental Protection Agency rule that munitions used as intended on 
operational ranges, e.g., dropped on a range, are not ``solid waste,'' 
(4) clarifying Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA) definition that firing a weapon is not a 
``release,'' and by (5) extending the timeframe to conform to State 
Implementation Plan requirements for air emissions.
    In summary, these modest changes to the current laws will maintain 
the current status of law and regulatory implementation policy while 
preventing judicial creep from changing well-established rules.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                            FORCE PROTECTION

    Question. Secretary Roche, I understand that the Army will be 
providing approximately 8,000 additional personnel to help the Air 
Force meet its increased force protection requirements. This support 
will last for two years, but is not included in the fiscal year 2003 
Budget or the proposed fiscal year 2004 budget. How does the Air Force 
plan on funding this increase and what plans are in the works for a 
permanent solution to the shortfall?
    Answer. The increases for Air Force force protection are a direct 
result of the attacks of September 11, 2001 and the Global War on 
Terrorism. These increases were initially fulfilled by the mobilization 
of over 90 percent of Air Reserve Component security forces. With the 
limit of 24 months of mobilization and the inability to replace those 
whose mobilizations will expire in 2003, the Air Force entered the 
agreement with the Army to provide replacement personnel. The timing of 
these requirements was such that the Air Force was unable to include it 
in the fiscal year 2003 or fiscal year 2004 budgets. For fiscal year 
2003, supplemental funding was provided. The fiscal year 2004 
requirement remains unfunded at this time.
    The Air Force plans to permanently resolve this shortfall with a 
combination of increasing the number of security forces by force 
structure adjustments, providing contract support where applicable, and 
exploiting technologies that will reduce the personnel requirement.

                             F/A-22 RAPTOR

    Question. Secretary Roche, as you know, the GAO has recently 
released a report on the cost growth of the F/A-22 Raptor. It states 
that ``DOD has not fully informed Congress (1) about what the total 
cost of the production program could be if cost reduction plans do not 
offset cost growth as planned or (2) about the aircraft quantity that 
can be procured within the production cost limit.'' If the cost limit 
is maintained and estimated production costs continue to rise, will the 
Air Force have to procure fewer F/A-22s than currently planned?
    Answer. The program has experienced production cost increases that 
have reduced the number of jets that can be bought. Under the $36.8 
billion Congressional production cap, current estimate is that between 
220-230 aircraft can be procured. It is important to note that, though 
aircraft affordability is not matching initial expectations, the 
aircraft are getting cheaper. By promoting production stability and 
momentum, there is no reason the program can't continue, and even 
accelerate, towards the ultimate goal of delivering Air Dominance to 
the Combatant Commanders.
    With relief from the current Congressional production cap, the Air 
Force estimates it can procure at least 276 aircraft under the $42.2 
billion OSD-approved ``buy-to-budget'' strategy. This revised estimate 
accounts for actual negotiated lots through Lot 3, conservative 
assumptions for future efficiencies, and a 5 percent risk factor for 
production ``unknowns.'' In addition, the Air Force and Office of the 
Secretary of Defense (OSD) Cost Analysis Improvement Group (CAIG) 
quantity estimates now agree within 3 percent. For these reasons as 
well as the positive affordability trend mentioned above, the Air Force 
fully expects to buy more than 276 aircraft under the OSD-approved 
production limit.
    Question. Secretary Roche, at the annual Air Force Association's 
Air Warfare Symposium, you described problems with F/A-22 and contended 
that if those problems cannot be repaired you would recommend 
termination of the program. Can you please describe the problems you 
were referring to, and is it your plan to cancel the program is these 
problems continue?
    Answer. The problem I referred to at the Air Warfare Symposium is 
avionics software stability. The issue is not how well the avionics 
perform, but how long they run before a module in the avionics software 
suite requires a reset. The current average run-time between resets, as 
measured in the F/A-22 Avionics Integration Laboratory (AIL), decreased 
when the software was loaded on the aircraft. OSD chartered an 
independent team to study this problem and recommend ways for improving 
run-time in the jet and ways for translating stability from the AIL 
into the aircraft. The team's recommendations center on implementation 
of new software development tools and data capturing methods for 
finding and fixing the root causes of instability events. The team 
stated that, after implementing new tools, there is no reason software 
stability cannot be resolved.

                              TANKER FLEET

    Question. Secretary Roche, General Myers stated in testimony before 
the Congress that replacing the 40-year old KC-135 air refueling fleet 
is an essential joint warfighting requirement. However, funds for 
replacing the tankers were not included in the fiscal year 2004 budget 
request. Is the tanker fleet ``relatively healthy'' or is the 
replacement of refueling tanks ``essential'' to support mission 
requirements?
    Answer. Recapitalization of the tanker fleet is ``essential'' and 
must begin now to continue to meet tanker requirements. The fiscal year 
2004 President's Budget does not include funding for the tanker 
replacement; however, there are two options under consideration by the 
Department of Defense to field a replacement aircraft within the future 
years defense plan. Pending departmental approval, the Air Force 
intends to bring the recommended plan forward and identify funding and 
delivery schedules at that time.

                      AIR FORCE INVESTMENT BUDGET

    Question. Secretary Roche, a Congressional Budget Office study of 
the long-term budget implications of current defense plans commissioned 
by this committee suggested that the Air Force's investment budget 
would need to grow to $59 billion by around 2012. The Air Force has 
made some cut backs to force size since CBO made that estimate but it 
seems likely that Air Force investment will require significant real 
increases in spending. Do you think those increases are likely to 
become available?
    Answer. As the CBO study illustrates, the Air Force faces a complex 
set of aging aircraft/system challenges. Since procurement of new 
U.S.A.F. aircraft/systems dropped to minimal levels during the 1990s, 
we now face a modernization bow wave that will take time and money to 
turn around. Moreover, the cost to maintain older systems could grow 
substantially and further erode the funding available for 
modernization.
    Though it is not appropriate for me to predict the level of 
funding, it is my role to examine the national security strategy and 
make recommendations to the Secretary and on how best to spend those 
funds available. We do this each year as part of the Future Years 
Defense Program build. The next comprehensive look at all this, to 
include the new security strategy and the post-Iraq-War environment, 
will be during the 2006 Quadrennial Defense Review. The Air Force will 
be a full and active partner in that process.
                                 ______
                                 
             Questions Submitted to General John P. Jumper
               Question Submitted by Senator Thad Cochran

                        AIR EXPEDITIONARY FORCE

    Question. General Jumper, I understand the Air Expeditionary Force 
construct you refer to on pages 11 and 12 of your written statement has 
been useful in managing deployment rotations and incorporation of the 
Guard and Reserves. Can you comment on the utility of this rotation 
methodology in the Afghanistan and Iraqi conflicts?
    Answer. The Air Expeditionary Force (AEF) has been very successful 
in allowing the Air Force to respond to the requirements of both 
Afghanistan and Iraq. Even under these stressing conditions the AEF 
allowed us to deploy and re-deploy forces in an orderly and thoughtful 
manner, thereby preserving the ability of the Air Force to meet 
national security imperatives.
    In January 2003, we made the decision to deviate from our normal 3-
month rotations so the Air Force could meet combatant commander 
requirements. To do so we ``surged'' the AEF to build-up the level of 
available forces by freezing AEF seven and eight in place and reaching 
forward into future AEFs for additional forces. This allowed us to 
simultaneously support homeland security requirements, the global war 
on terrorism, Operation IRAQI FREEDOM, and an increased force posture 
in the Korean AOR proving the AEF's robustness and ability to respond 
to crisis situations; however, this deviation from the Air Force's 
normal AEF ``battle rhythm'' affected all Air Force personnel: Active 
Duty, Guard, and Reserve.
    As I noted in the U.S.A.F. Posture Statement, ``we do nothing 
without Guard, Reserve and civilian personnel working alongside Active 
Duty airmen.'' The AEF construct gives the Air Force the tools to 
select the Active Duty, Guard or Reserve capability best able to meet 
combatant commander's requirements and achieve national military 
objectives. Since September 11, 2001, we have seen a continued increase 
in baseline requirements for air and space expeditionary forces. This 
trend began after Desert Storm and has continued throughout Kosovo and 
Afghanistan. Until we are better able to judge the post Operation IRAQI 
FREEDOM requirements, we cannot specifically define the level of 
emerging sustained forces required. Regardless of the level of this 
requirement, the AEF construct allows us to maximize our sustainable 
deployed capability while giving us the flexibility to respond to 
additional contingency requirements.
    To understand this, one has to realize that the AEF construct is 
not just a way for the Air Force to manage deployment rotations. The 
AEF construct allows us to provide the greatest possible capability to 
the combatant commanders while preserving the readiness of the force to 
meet both rotational and crisis requirements. A crucial part of force 
readiness is achieved by retaining our most critical resource, the 
trained and motivated airman. The recent conflicts in Iraq and 
Afghanistan have once again highlighted the tremendous job these young 
professionals are doing for our country. To retain this crucial 
resource it is essential we give them the tools to manage their 
professional and personal lives by providing predictability and 
stability. The AEF construct has been fundamental to our ability to 
train and retain the best and brightest.
    Recent Operations operations have afforded the Air Force an 
opportunity to test the ability of the AEF to robust and respond to 
crisis situations. The AEF met this challenge head-on, seamlessly 
proving each combatant commander with the expeditionary air and space 
capabilities to prevail.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                              TANKER FLEET

    Question. General Jumper, there is strong reason to believe that 
the need for aerial refueling operations to conduct current and future 
operations will continue to grow. Is the Air Force's current tanker 
fleet able to handle an increased pace of operations?
    Answer. We are confident that we can, and will, successfully 
execute missions as we did with Operations ENDURING FREEDOM and IRAQI 
FREEDOM. However, if simultaneous operations in other regions are 
added, tanker availability becomes more of a limiting factor, delaying 
deployment of forces, and extending the duration of the air war.
    The Air Force has an urgent and compelling need to begin replacing 
the 43-year-old KC-135E as soon as possible. Competing priorities and 
limited budget demand our leaders make decisions based on operational 
risk and investment choices. Today, our most pressing tanker risk is a 
delay to the replacement process. In the future, the Air Force will 
continue to assess its tanker requirements and make appropriate 
decisions regarding future force structure.

                             SPACE PROGRAMS

    Question. General Jumper, the Space-Based InfraRed System-High has 
in the past suffered from schedule delays and significant cost growth. 
Can you please give the committee an update on progress in the Air 
Force's Space-Based InfraRed System-High in the fiscal year 2004 budget 
request and can you guarantee that this program is on schedule and 
within its budget?
    Answer. The fiscal year 2004 Research, Development, Test and 
Evaluation (RDT&E) request for Space-Based Infrared System-High (SBIRS 
High) will continue to fund the development contract for space and 
ground segment development, continue System Program Office support, and 
independent technical analysis by Aerospace corporation.
    The fiscal year 2004 Other Procurement, Air Force (OPAF) will fund 
procurement of equipment needed for Mission Control Station Backup 
(MCSB) site activation, systems engineering, integration, and test 
support; and hardware and software licenses and government furnished 
equipment (GFE). The MCSB at Schriever AFB, CO will be the backup to 
the SBIRS Mission control station (MCS) at Buckley AFB, CO, to meet 
full operational needs. The MCSB is currently under construction using 
the MILCON funded in fiscal year 2002 ($19 million) and is on schedule 
for completion by September 2003.
    The Interim Test Center (ITC) hardware installation in Boulder, CO, 
is scheduled to be completed in July. The Integrated Training Suite 
(ITS) is scheduled to be available in the fall of this year. The ITS is 
critical to maintain an experienced and effective crew force--ensuring 
personnel are trained when they arrive station and remain proficient 
throughout their assignment.
    SBIRS Highly Elliptical Orbit (HEO)-1 payload environmental 
testing, including thermal vacuum and acoustic tests, and several 
payload-to-host and -ground interface tests were successfully completed 
in 2002. Electromagnetic Interference (EMI) testing uncovered excessive 
radiated emissions levels in late December 2002. The HEO-1 test and 
certification program is designed to find and fix problems. The 
problems encountered are not unusual for first time payload integration 
of a new sensor. Resolution has required extended rework and parts 
fabrication, resulting in a schedule breach to the Acquisition Program 
Baseline for delivery of the HEO-1 payload (May 2003 threshold). The 
revised schedule details are still being worked; however, delivery 
should satisfy the Host's need date. Impacts to the schedules for 
subsequent deliveries, including HEO-2 payload and GEO spacecraft, are 
under review. The delivery of HEO-1 continues to receive the highest 
attention and priority among all stakeholders, contractor CEOs, and the 
Under Secretary of the Air Force.
    The recent delay in the delivery of the HEO-1 payload is being 
handled within the program's funding based on the cost estimate 
developed during the Nunn McCurdy certification review process. While 
HEO-1 payload delay is unfortunate, the lessons learned from this delay 
are being incorporated in the HEO-2 and GEO assembly, integration, and 
test.
    As a result of the schedule delays and significant cost growth that 
led to the SBIRS Nunn-McCurdy unit cost breach notification to Congress 
in December 2001, the Secretary of the Air Force directed an 
Independent Review Team (IRT), in concert with Lockheed Martin, to 
review the program and diagnose the root causes and contributing 
factors of the significant cost growth. Three root causes were 
identified.
    1. The program was too immature to enter the detailed System Design 
and Development phase.
    2. The system requirements and their flow-down into engineering 
solutions were not well understood.
    3. A significant breakdown in execution management occurred, both 
within the government and the contractor teams.
    These findings were addressed in the restructured program presented 
to the Under Secretary of Defense Acquisition, Technology, and 
Logistics USD(AT&L) for his review.
    The USD(AT&L) certified the SBIRS program to Congress as required 
by the Nunn-McCurdy Act on May 2, 2002. The Acquisition Decision 
Memorandum directed the Air Force to:
  --Fully fund the SBIRS-High program to the OSD estimate
  --Rebaseline program to OSD schedule
  --Approve a revised Acquisition Program Baseline and a revised 
        Acquisition Strategy
  --Submit a quarterly Selected Acquisition Report with an as-of-date 
        of June 30, 2002
  --By January 30, 2003, Under Secretary of the Air Force provide AT&L 
        with assessment of the program status to meet the revised 
        Acquisition Program Baseline--completed January 27, 2003.
    As part of the Nunn-McCurdy certification process, the Air Force 
restructured SBIRS High to make it executable and fully funded the 
program to the OSD estimate. The program established a realistic 
baseline and implemented management changes based on the Independent 
Review Team findings. The acquisition strategy was revised and the 
Total System Performance Responsibility (TSPR) clause removed from the 
contract. The comprehensive government Estimate at Complete (EAC) 
identified many shortfalls with the original technical baseline that 
are now corrected and funded. The schedule also provides for adequate 
testing timelines (based on historical data). The Earned Value 
Management System (EVMS) enhancements add industry best practices and 
more SPO surveillance. Both government and Aerospace staff dedicated to 
SBIRS have increased.
    The program is implementing only ``Urgent & Compelling'' needs via 
a disciplined change process controlled by the SBIRS Program Management 
Board. This Program Management Board is in place to prevent 
requirements creep. The revised contract defines quantifiable, 
objective performance criteria to reward positive behavior and penalize 
poor behavior--a Best practice recommendation of the Young Panel.
  --Program Execution Performance (PEP) incentivizes disciplined 
        management/system engineering processes
  --Mission Success Incentive incentivizes timely delivery of military 
        capability
  --Cost Plus Incentive Fee (CPIF) contract clause incentivizes cost 
        performance
    Although challenges remain, the Department is reasonably confident 
that the SBIRS cost and schedule estimates are realistic and 
executable, based on both Air Force and OSD independent cost estimates.

                  EXPEDITIONARY AEROSPACE FORCE (EAF)

    Question. General Jumper, given the current world situation--with 
its large scale deployments for the war on terrorism and war with Iraq, 
and the possibility that these large scale deployments might continue 
for a number of years--is the EAF concept still viable?
    Answer. Yes, the Aerospace Expeditionary Force (AEF) concept is 
still viable. The AEF concept is not tied to a particular base or 
mission. It is the way the Air Force organizes and prepares for 
military operations abroad.
    The Air Force implemented the AEF structure in October 1999 as a 
force management and presentation tool designed to ensure fully trained 
and combat-capable airpower forces are always available to successfully 
support standing contingency operations.
    Sustaining on-going rotation requirements has become part of our 
Air Force culture. The AEF concept articulates the capability of the 
Air Force to support normal standing rotations and contingency 
operations. The Air Force can indefinitely support the deployment of up 
to two AEFs (aircraft and expeditionary combat support) worth of 
assets.
    When contingency requirements exceeded this maximum sustainable 
capability, we ``surged'' the AEF to meet those evolving requirements. 
During ``surge'' we are able to temporarily increase the amount of 
deployed capability up to four AEFs. Requirements beyond two AEFs force 
us to reach forward into successive AEFs for the required capabilities. 
This surge comes at a price. To enable the build-up of capability unit 
training cycles are curtailed and deployment durations are extended. 
The higher the level and the duration of surge the greater the 
reconstitution impact, in terms of training and recapitalization of 
equipment. The Air Force is prepared to transition back to a more 
normal rotation cycle when the combatant commanders no longer need the 
additional support for OPERATION IRAQI FREEDOM.
    It is important to stress that the ability of the Air Force to 
support deployment requirements is in no way limited by the AEF 
construct. The AEF structure allows the Air Force to meet the 
challenges head on. It provides the Air Force a methodology for 
managing force readiness to meet the growing demands for Air & Space 
Expeditionary Forces, while simultaneously supporting the Defense 
Strategy requirements such as: defend the homeland, deter forward, 
swiftly defeat and/or a limited number of lesser contingencies.
    Total force size, active to reserve component mix and overseas and 
CONUS base structure determine our total deployment capability. To 
maintain readiness and meet retention needs the Air Force, like the 
other services, needs to limit Temporary Duty (TDY)/deployments of this 
deployable capability to approximately one-third of the time. The AEF 
rotational construct does this.
    Air Force senior leadership is working to reshape the force in 
areas of concern highlighted by the recent stress on the system 
resulting from current operations. Where possible we are shifting 
resources from less stressed areas into stressed career fields and 
shifting military positions to make the maximum deployable capability 
available. We are also completely revamping our methodology for 
determining military and civilian manning requirements to focus the 
requirement process on deployable capability rather that home station 
requirements. These efforts have made over 270,000 active duty 
positions available to meet deployed requirements.
    The bottom line is that the AEF has been a tremendous success since 
its inception. The modifications we are pursuing, such as embedding the 
Air Expeditionary Wings (AEWs) have enhanced the capability of the AEF 
over the course of its evolution. The likely level of requirements will 
continue to stress the Air Force in the coming years as we reduce the 
numbers of mobilized forces, the AEF gives us the best possible tool to 
cope with these stresses.

                          SUBCOMMITTEE RECESS

    Senator Stevens. If there is nothing further, the 
subcommittee will stand in recess.
    [Whereupon, at 11:25 a.m., Wednesday, March 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
